DoD OIG Report No. DODIG-2012-072   DOI OIG Report No. ER-IN-NBC-0001-2011



            A JOINT AUDIT BY THE INSPECTORS GENERAL OF 
               U.S. DEPARTMENT OF THE INTERIOR AND 
                    U.S. DEPARTMENT of DEFENSE 




       DoD’s  FY 2010 Purchases Made Through the 
                Department of the Interior 




                                                       April 13, 2012
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      4800 Mark Center Drive (13F25-04)
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AQD                           Acquisition Services Directorate
DARPA                         Defense Advanced Research Projects Agency
DoD FMR                       DoD Financial Management Regulation
DOI                           Department of the Interior
FAR                           Federal Acquisition Regulation
GAO                           Government Accountability Office
GSA                           General Services Administration
IGCE                          Independent Government Cost Estimate
MIPR                          Military Interdepartmental Purchase Request
NASA                          National Aeronautics and Space Administration
O&M                           Operation and Maintenance
U.S.C.                        United States Code
USD AT&L                      Under Secretary of Defense for Acquisition, Technology,
                                and Logistics
            Department of Defense                Department of the Interior
            4800 Mark Center Drive               MS4428 - MIB
            Alexandria, Virginia 22350-1500      1849 C Street, NW
                                                 Washington, DC 20240



                                                                          April 13, 2012

MEMORANDUM FOR SECRETARY OF THE INTERIOR
               UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLOGY, AND LOGISTICS
               UNDER SECRETARY OF DEFENSE (COMPTROLLER)/
                 CHIEF FINANCIAL OFFICER
               ASSISTANT SECRETARY OF THE AIR FORCE
                 (FINANCIAL MANAGEMENT AND COMPTROLLER)
               NAVAL INSPECTOR GENERAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT: DoD’s FY 2010 Purchases Made Through the Department of the Interior
         (DoD Report No. DODIG-2012-072)
         (DOI Report No. ER-IN-NBC-0001-2011)

We are providing this report for review and comment. We considered comments from
the Secretary of the Interior; Under Secretary of Defense for Acquisition, Technology,
and Logistics; Under Secretary of Defense (Comptroller)/Chief Financial Officer; and the
Assistant Secretary of the Army (Financial Management and Comptroller) when
preparing the final report.

DoD Directive 7650.3 and the DOI Departmental Manual 360 DM 1 require that all
recommendations be resolved promptly. The comments from the Secretary of the
Interior, Under Secretary of Defense (Comptroller)/Chief Financial Officer, and the
Assistant Secretary of the Army (Financial Management and Comptroller) were
responsive. However, the comments from the Under Secretary of Defense for
Acquisition, Technology, and Logistics were only partially responsive. Therefore, we
request comments on Recommendation A.2 by May 14, 2012.

If possible, send a Microsoft Word (.doc) file and portable document format (.pdf) file
containing your comments to audacm@dodig.mil. Portable document format (.pdf)
copies of your comments must have the actual signature of the authorizing official for
your organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them
over the SECRET Internet Protocol Router Network (SIPRNET).
                                                                                              2

     We appreciate the courtesies extended to the staff. Please direct questions to us at
     (703) 604-890 I and (202) 208-5745, respectively.




O~aniel R.        I r
                                                         ~~~
                                                       Kimberly Elm e
l'    Deputy Inspector General                         Assistant inspector General for
      Department of Defense                            Audits, Inspections, and Evaluations
      Office ofinspector General                       U.S. Department of the Interior
                                                       Office of Inspector General
Report No. DODIG-2012-072 (Project No. D2011-D000CF-0034.000)        April 13, 2012
DOI Report No. ER-IN-NBC-0001-2011 (Project No. ER-IN-NBC-0001-2011)


              Results in Brief: DoD’s FY 2010 Purchases
              Made Through the Department of the Interior

                                                           •   DoD requesting activity officials
What We Did                                                    performed inadequate reviews of
The National Defense Authorization Act for                     contractor cost proposals for 31 contract
FY 2008 requires the DoD Inspector General and                 actions, valued at $77.1 million.
the Department of the Interior (DOI) Inspector
General to review DoD procedures for                       •   DoD requesting activity officials
interagency purchases made through DOI. We                     prepared inadequate independent
reviewed 56 contract actions, valued at                        Government cost estimates for
$133.4 million, which officials from two DOI                   38 contract actions, valued at
contracting offices, the Acquisition Services                  $84.1 million.
Directorate (AQD)-Herndon and
AQD-Sierra Vista, awarded for DoD requesting               •   AQD-Herndon and AQD-Sierra Vista
activities, to determine whether the purchases                 used other Federal agencies’ and existing
were made in accordance with laws, policies, and               DoD contracts to make purchases for
procedures.                                                    DoD for 44 contract actions, valued at
                                                               $95.3 million.
What We Found
                                                        The price reasonableness problems occurred
Generally, DOI contracting and resource                 because AQD-Herndon and AQD-Sierra Vista
management officials complied with laws,                contracting officials relied on incomplete DoD
policies, and procedures. Prior significant             requesting activities’ reviews of contractor cost
problems with DOI billing DoD in advance and            proposals and inadequate DoD requesting
DOI using DoD expired funds have been fixed.            activities independent Government cost estimates
Improvements can still be realized in other             as their primary basis for determining that the
contracting areas. Specifically:                        prices DoD paid were fair and reasonable. The
                                                        competition problems occurred because AQD-
   •   AQD-Herndon and AQD-Sierra Vista                 Herndon contracting officials did not attempt to
       contracting officials did not support that       obtain more offers after receiving only one offer.
       the prices DoD paid were fair and
       reasonable for 24 contract actions, valued       We also identified five potential bona fide needs
       at $72 million.                                  rule violations, valued at $6.9 million. The
                                                        problems occurred because the policy for
   •   AQD-Herndon contracting officials did            Economy Act orders and non-Economy Act
       not adequately compete two contract              orders is not consistent. In addition, the
       actions, valued at $1.3 million, and did         “reasonable time” standard for Economy Act
       not support the use of sole-source               orders is unclear. As a result, AQD-Sierra Vista
       contracts for three contract actions,            accepted DoD purchases right up to the end of
       valued at $1.3 million.




                                                    i
Report No. DODIG-2012-072 (Project No. D2011-D000CF-0034.000)                              April 13, 2012
DOI Report No ER-IN-NBC-0001-2011 (Project No. ER-IN-NBC-0001-2011)

the fiscal year, sometimes on September 30,               purchased and a period of performance, when
2010. This made it difficult, if not impossible,          they prepare MIPRs.
for contract performance to begin during the
funds’ period of availability, as required by             The Assistant Secretary of the Army (Financial
the DoD Regulation 7000.14-R, “DoD Financial              Management and Comptroller) should instruct
Management Regulation” (DoD FMR). We also                 activities having potential bona fide needs rule
determined that 38 of 81 DoD military                     violations to initiate action and oversee the
interdepartmental purchase requests (MIPRs),              process to adjudicate the potential violations.
related to 27 of the 56 contract actions, were not
specific. The MIPRs were not specific because             Management Comments and
DoD requesting activities did not follow existing
guidance related to the need to be specific when
                                                          Our Response
defining requirements.                                    The Secretary of the Interior agreed with the
                                                          recommendations, and the comments were
What We Recommend                                         responsive. The Secretary of the Interior agreed
                                                          to strengthen the Interior’s process of informing
The Secretary of the Interior should direct the           DoD requesting activities of the intent to use
DOI National Business Center to instruct AQD-             contracts from other Federal agencies. The USD
Herndon and AQD-Sierra Vista to inform DoD                AT&L agreed with the recommendations;
requesting agencies of their intent to use DoD            however, his comments were not fully
contracts and contracts from other Federal                responsive. The USD AT&L stated that DoD
agencies for DoD purchases and to better support          had generated multiple Defense Federal
price reasonableness determinations for DoD               Acquisition Regulation Supplement cases
purchases. Likewise, the Under Secretary of               including Case 2011-D013. The USD AT&L did
Defense for Acquisition, Technology, and                  not address the action his office is going to take
Logistics (USD AT&L) should instruct DoD                  to instruct DoD requesting activities to obtain
requesting activities to obtain prior approval            prior approval from their respective heads of
from their respective heads of contracting when           contracting when DOI prepares to use other
DOI prepares to use other Federal agencies’               Federal agencies’ contracts for DoD purchases.
contracts for DoD purchases.                              Therefore, we request that the USD AT&L
                                                          provide additional comments in response to the
The Under Secretary should also initiate a                final report. The Under Secretary of Defense
change to the Defense Federal Acquisition                 (Comptroller)/Chief Financial Officer, and the
Regulation Supplement to include information              Assistant Secretary of the Army (Financial
contained in the USD AT&L November 24,                    Management and Comptroller) agreed with the
2010, and April 27, 2011, memoranda.                      recommendations, and the comments were
                                                          responsive. The Under Secretary of Defense
The Under Secretary of Defense                            (Comptroller)/Chief Financial Officer agreed to
(Comptroller)/Chief Financial Officer should              update the DoD FMR and to issue a policy
change the DoD FMR so that policy for                     memorandum to remind Components to adhere
Economy Act orders matches that for non-                  to existing guidance in the DoD FMR. The
Economy Act orders, requiring severable                   Assistant Secretary of the Army (Financial
services to begin during the funds’ period of             Management and Comptroller) agreed to review
availability. The Comptroller should also                 the five contracts and issue guidance directing
instruct DoD Components to comply with                    the appropriate commands to provide additional
existing guidance on the need to be specific in           information and report violations to his office.
defining requirements, including a clear                  Please see the recommendations table on the next
description of the services or goods being                page.

                                                     ii
Report No. DODIG-2012-072 (Project No. D2011-D000CF-0034.000)        April 13, 2012
DOI Report No. ER-IN-NBC-0001-2011 (Project No. ER-IN-NBC-0001-2011)

Recommendations Table

         Management                   Recommendations      No Additional Comments
                                     Requiring Comment           Required
Secretary of the Interior                                 A.1

Under Secretary of Defense for    A.2.a                   A.2.b
Acquisition, Technology, and
Logistics
Under Secretary of Defense                                B.1
(Comptroller)/Chief Financial
Officer
Assistant Secretary of the Army                           B.2
(Financial Management and
Comptroller)

Please provide comments by date May 14, 2012.




                                           iii
Table of Contents
Introduction                                                             1

      Objective                                                          1
      Legislation and Congressional Report Requirement                   1
      Background                                                         2
      Review of Internal Controls                                        4

Finding A. DOI Complied With Laws, Policies, and Procedures,
but Improvement Is Needed                                                5

      DOI Complied With Section 801 Requirements                         6
      Prior Significant Problems Have Been Fixed                         6
      Price Reasonableness Problems Occurred                             6
      Competition and Sole-Source Problems Occurred                      7
      DoD Reviews of Contractor Cost Proposals Were Inadequate           9
      Information in IGCEs Was Not Supported                            11
      DoD Paid Unnecessary Fees When DOI Used Other Federal Agencies’
         Contracts to Make Purchases for DoD                            11
      Conclusion                                                        14
      Recommendations, Management Comments, and Our Response            15

Finding B. Potential Bona Fide Needs Rule Violations                    17

      Applicable Criteria                                               17
      Five Potential Bona Fide Needs Rule Violations                    18
      Contributing Factors                                              22
      DoD MIPRs Were Not Specific                                       23
      Conclusion                                                        23
      Recommendations, Management Comments, and Our Response            24

Appendices

      A. Scope and Methodology                                          26
         Universe Information                                           26
         Sample Information                                             26
         Use of Computer-Processed Data                                 27
      B. Prior Coverage                                                 28
      C. DoD Purchases Reviewed                                         30
      D. AQD-Herndon Contracting Problems                               36
      E. AQD-Sierra Vista Contracting Problems                          38
      F. MIPRs That Were Not Specific                                   40
Table of Contents (cont’d)
Management Comments

     Department of the Interior                                              42
     Under Secretary of Defense for Acquisition, Technology, and Logistics
       Comments                                                              45
     Under Secretary of Defense (Comptroller)/Chief Financial Officer        46
     Department of the Army                                                  48
Introduction
Objective
Our overall objective was to determine whether contract actions for purchases that two
Department of the Interior (DOI) contracting offices, Acquisition Services Directorate
(AQD)-Herndon and AQD-Sierra Vista, made for DoD requesting activities were in
compliance with laws, policies, and procedures. Specifically, we examined whether:

   •   DOI complied with defense procurement requirements,
   •   adequate competition occurred,
   •   goods and services purchased were obtained at fair and reasonable prices, and
   •   DoD funds were used appropriately.

See Appendix A for a discussion of the scope and methodology and Appendix B for prior
coverage related to the objectives.

Legislation and Congressional Report Requirement
We performed this audit pursuant to Public Law 110-181, “The National Defense
Authorization Act for Fiscal Year 2008,” section 801, “Internal controls for procurements
on behalf of the Department of Defense by certain non-Defense agencies,”
January 28, 2008. Section 801 requires the following Inspector General reviews:

“(a) INSPECTORS GENERAL REVIEWS AND DETERMINATIONS.—
    (1) IN GENERAL.—For each covered non-defense agency, the Inspector General of the
Department of Defense and the Inspector General of such covered non-defense agency
shall, not later than the date specified in paragraph (2), jointly—
        (A) review—
             (i) the procurement policies, procedures, and internal controls of such covered
        non-defense agency that are applicable to the procurement of property and
        services on behalf of the Department by such covered non-defense agency; and
             (ii) the administration of such policies, procedures, and internal controls; and
        (B) determine in writing whether such covered non-defense agency is or is not
    compliant with defense procurement requirements.
    (2) DEADLINE FOR REVIEWS AND DETERMINATIONS.—The reviews and determinations
required by paragraph (1) shall take place as follows:
        (A) In the case of the General Services Administration, by not later than March
    15, 2010.
        (B) In the case of each of the Department of the Treasury, the Department of the
    Interior, and the National Aeronautics and Space Administration, by not later than
    March 15, 2011.
        (C) In the case of each of the Department of Veterans Affairs and the National
    Institutes of Health, by not later than March 15, 2012.”




                                             1
On March 14, 2011, we provided letters and debrief charts to the U.S. House Committee
on Armed Services and the U.S. Senate Armed Services Committee, which included the
results of our audit.

Background
Interagency acquisition is the procedure by which an agency needing supplies or services
obtains them by means of another agency’s contract, the acquisition assistance of another
agency, or both. Interagency acquisitions typically involve two Government agencies:
the requesting agency, which has the requirement, and the servicing agency, which
provides the acquisition support, administers the contract, or both. There are two types of
interagency acquisitions: direct acquisition and assisted acquisition. In direct
acquisition, the requesting agency places an order against the servicing agency’s
indefinite-delivery vehicle. The servicing agency manages the indefinite-delivery vehicle
but does not participate in the placement of an order. In assisted acquisition, the
servicing agency and requesting agency enter into an interagency agreement, where the
servicing agency performs acquisition activities on the requesting agency’s behalf. The
servicing agency is responsible for awarding a contract, task order, or delivery order and
for appointing a contracting officer’s representative. The 56 contract actions reviewed
during this audit were assisted acquisitions, which two DOI National Business Center
contracting activities executed for purchases on behalf of DoD requesting activities
during FY 2010. Appendix C provides details on each of the 56 contract actions.

The National Business Center
The National Business Center, created within DOI on April 1, 1999, includes seven
directorates:

   •   Acquisition Services,
   •   Aviation Services,
   •   Consulting and Performance Management Services,
   •   Financial and Business Management Services,
   •   Human Resource Services,
   •   Information Technology Services, and
   •   Other DOI Support Services.

The 56 contract actions reviewed in this report were related to the Acquisition Services
Directorate. There are five contracting offices within AQD, in Boise, Idaho; Denver,
Colorado; Herndon, Virginia; Sierra Vista, Arizona; and Washington, D.C. AQD-
Herndon and AQD-Sierra Vista awarded the 56 contract actions we reviewed. We
selected these contracting offices because they obligated more funds for DoD purchases
than the other contracting offices.

DoD Business With DOI in FY 2010 Was Significant
As Figure 1 shows, a large portion of AQD-Herndon and AQD-Sierra Vista contract
actions were for DoD. During FY 2010, AQD-Herndon executed 1,001 contract actions,
which obligated $1.1 billion of funds. Of these, 347 contract actions, which obligated

                                            2
funds of $521.1 million, were for assisted acquisitions that AQD-Herndon made on
behalf of DoD customers. Accordingly, 48 percent of AQD-Herndon’s FY 2010
obligations were for DoD purchases. During the same time period, AQD-Sierra Vista
executed 640 contract actions, which obligated $498.7 million of funds. Of these,
464 contract actions, with obligated funds of $434.3 million, were for assisted acquisition
purchases that AQD-Sierra Vista made on behalf of DoD customers. Accordingly,
87 percent of AQD-Sierra Vista’s FY 2010 obligations were for DoD purchases.

      Figure 1. Proportion of Contract Actions Performed for DoD Purchases
                at AQD-Herndon and AQD-Sierra Vista in FY 2010




Figure 2 identifies the various DoD activities that used AQD-Herndon and AQD-
Sierra Vista for assisted acquisitions during FY 2010. The Defense Advanced Research
Projects Agency (DARPA) is separated from other DoD agencies to better show its
significant use of AQD-Sierra Vista.

     Figure 2. DoD Activities That Used AQD-Herndon and AQD-Sierra Vista
                                    in FY 2010




Contract Actions We Reviewed
We nonstatistically selected 56 FY 2010 AQD-Herndon and AQD-Sierra Vista contract
actions, valued at $133.4 million, for review. AQD-Herndon awarded 28 of the 56 contract
actions, valued at $63.5 million, for 16 DoD requesting activities. AQD-Sierra Vista also
awarded 28 contract actions, valued at $69.9 million, for 12 DoD requesting activities.

                                             3
Fifty of the 56 contract actions were for services, and 6 were for products. We used the
Federal Procurement Data System-Next Generation database to determine the contract
actions we reviewed.

We reviewed the contract actions for the following issues:

   •   compliance with defense procurement requirements,
   •   advance billing,
   •   use of expired funds,
   •   furniture purchases,
   •   competition,
   •   price reasonableness determinations, and
   •   use of funds.

Various Contracting Methods DOI Used for DoD Purchases
AQD-Herndon and AQD-Sierra Vista contracting officials used a variety of contracting
methods for the 56 contract actions (see Table 1). These included other Federal agencies’
contracts, such as the General Services Administration (GSA) Federal supply schedules;
existing DoD contacts; an existing National Aeronautics and Space Administration
(NASA) contract; and new and existing DOI contracts.

                  Table 1. Contracting Methods Used for DoD Purchases
       DOI            GSA Federal     Existing       Existing   Existing    New        Total
    Contracting         Supply         DoD            NASA       DOI        DOI
      Office           Schedules      Contract       Contract   Contract   Contract
  AQD-Herndon             13            10              1          2          2         28
  AQD-Sierra Vista         20                                      6           2        28
   Total                   33            10             1          8           4        56


Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, and the DOI Departmental Manual 360 DM 1, requires DoD and DOI
organizations to implement a comprehensive system of internal controls that provides
reasonable assurance that programs are operating as intended and to evaluate the
effectiveness of the controls. We identified internal control weaknesses when, AQD-
Herndon and AQD-Sierra Vista contracting officials relied on incomplete DoD reviews
of contractor cost proposals and independent Government cost estimates (IGCEs) as their
primary basis for determining that the prices paid were fair and reasonable. Accordingly,
DoD did not have adequate assurance that the prices it paid were fair and reasonable or
that it obtained best value. In addition, DoD and AQD-Sierra Vista did not always follow
the bona fide needs rule, and DoD funding documents were not specific. We will provide
a copy of the report to the senior official responsible for internal controls in the offices of
the Under Secretary of Defense for Acquisition, Technology and Logistics; the Under
Secretary of Defense (Comptroller)/Chief Financial Officer; and the DOI National
Business Center.

                                                 4
Finding A. DOI Complied With Laws, Policies,
and Procedures, but Improvement Is Needed
Generally, DOI contracting offices AQD-Herndon and AQD-Sierra Vista contracting and
resource management officials complied with laws, policies, and procedures. Prior
significant problems with purchases made by DOI—billing DoD in advance and using
DoD expired funds—have been fixed. DOI can still improve support for price
reasonableness determinations, and DoD requesting activities can improve on proposal
reviews and IGCEs. Specifically: *

    •    Of 48 contract actions, valued at $102.6 million, AQD-Herndon and AQD-Sierra
         Vista contracting officials did not support that the prices DoD paid were fair and
         reasonable for 24 contract actions, valued at $72 million.

    •    Of 45 contract actions, valued at $101.8 million, AQD-Herndon contracting
         officials did not adequately compete 2 contract actions, valued at $1.3 million,
         and did not support the use of sole-source contracts for 3 contract actions, valued
         at $1.3 million.

    •    Of 42 contract actions, valued at $91.4 million, DoD requesting activity officials
         performed inadequate reviews of contractor cost proposals for 31 contract actions,
         valued at $77.1 million.

    •    Of 40 contract actions, valued at $89.6 million, DoD requesting activity officials
         prepared inadequate IGCEs for 38 contract actions, valued at $84.1 million.

    •    Of 56 contract actions, valued at $133.4 million, AQD-Herndon and AQD-Sierra
         Vista used other Federal agencies’ contracts and existing DoD contracts to make
         purchases for DoD for 44 contract actions, valued at $95.3 million.

The price reasonableness problems occurred because AQD-Herndon and AQD-
Sierra Vista contracting officials relied on incomplete DoD reviews of contractor cost
proposals and IGCEs as their primary basis for determining that the prices paid were fair
and reasonable. The competition problems occurred because AQD-Herndon and AQD-
Sierra Vista contracting officials did not attempt to obtain more offers after receiving
only one offer and also because they advertised requirements for short periods of time.
The sole-source problems occurred due to poor acquisition planning. Until DoD and DOI
resolve these contracting issues, DoD will not be assured that it is receiving best value
when using DOI for making interagency acquisitions.




*
 Overall, we reviewed 56 contract actions. Eight of the contract actions were modifications to contracts or
orders issued under existing contracts; therefore, we did not review these for competition or pricing issues.
That is why the denominators in the bulleted information are different.

                                                      5
DOI Complied With Section 801 Requirements
Congress enacted section 801 of the FY 2008 National Defense Authorization Act
because of abuses related to DoD purchases made through other agencies. Section 801
requires the following for Inspector General reviews:

                   (b) LIMITATION ON   PROCUREMENTS ON BEHALF OF DEPARTMENT
               OF DEFENSE.—
                        (1) Except as provided in paragraph (2), an acquisition official
                   of the Department of Defense may place an order, make a
                   purchase, or otherwise procure property or services for the
                   Department of Defense in excess of the simplified acquisition
                   threshold through a non-defense agency only if—
                             (A) in the case of a procurement by any non-defense
                        agency in any fiscal year, the head of the non-defense agency
                        has certified that the non-defense agency will comply with
                        defense procurement requirements for the fiscal year.

Generally, DOI contracting and resource management officials complied with
section 801 of the National Defense Authorization Act for Fiscal Year 2008.

Prior Significant Problems Have Been Fixed
Problems that had been identified in past DOI audits, specifically advance billing and the
use of expired DoD funds, did not reoccur. DOI did not bill in advance or use expired
DoD funds. However, we determined that none of the 56 contract actions we reviewed
were for furniture purchases. As a result of the furniture problems identified in DoD
Inspector General Report No. D-2008-122, “Follow-up on DoD Purchases Made Through
the Department of the Interior,” August 18, 2008, the Director, Defense Procurement and
Acquisition Policy, issued a memorandum on March 27, 2008, that imposed restrictions
on furniture purchases. The memorandum stated:

               Interagency agreements with the Department of the Interior’s Herndon
               and AQD-Sierra Vista locations for requirements for furniture may
               only be accepted and executed by the Associate Director, Acquisition
               Services, or his designee(s). In no event may DoD Components send
               an interagency agreement for any furniture requirement after July 1, or
               any fiscal year, regardless of the expected delivery date of the
               requirement.

In response to the Director’s restrictions, the Associate Director of the DOI National
Business Center, Acquisition Services Directorate, delegated his authority to accept DoD
requirements for furniture to an Acquisition Services Directorate Division Chief. We did
not identify any instances where AQD-Herndon or AQD-Sierra Vista purchased furniture
on behalf of DoD during FY 2010.

Price Reasonableness Problems Occurred
Of 48 contract actions, valued at $102.6 million, AQD-Herndon and AQD-Sierra Vista
contracting officials did not support that the prices DoD paid were fair and reasonable for
24 contract actions, valued at $72 million. The price reasonableness problems were

                                                  6
related to contract actions for services that involved only one offer. The price
reasonableness problems occurred because AQD-Herndon and AQD-Sierra Vista
                                                    contracting officials relied primarily on
       The price reasonableness problems            inadequate DoD reviews of contractor
      occurred because AQD-Herndon and              cost proposals and inadequate DoD
     AQD-Sierra Vista contracting officials         IGCEs to support that the prices DoD
       relied primarily on inadequate DoD           paid were fair and reasonable. For 10
    reviews of contractor cost proposals and        contract actions, AQD-Sierra Vista
   inadequate DoD IGCEs to support that the         contracting officials did not even state
   prices DoD paid were fair and reasonable.        whether the overall prices were fair and
                                                    reasonable. Appendices D and E
identify the individual AQD-Herndon and AQD-Sierra Vista contract actions that had
price reasonableness problems. DOI also had price reasonableness problems involving
contract actions for the purchases of services involving only one offer during three prior
DOI audits, (see Table 2).

    Table 2. Price Reasonableness Problems Identified During Prior DOI Audits
        DoD IG Report Title         Report          Report Date        No. of Contract
                                    Number                           Actions With Price
                                                                       Reasonableness
                                                                     Problems (Services)
    FY 2005 DoD Purchases
    Made Through the               D-2007-044        01/16/07             20 of 24
    Department of the Interior
    FY 2006 and FY 2007 DoD
    Purchases Made Through the     D-2008-066        03/19/08              4 of 24
    Department of the Interior
    Follow-up on DoD Purchases
    Made Through the               D-2008-122        08/18/08              6 of 22
    Department of the Interior


Competition and Sole-Source Problems Occurred
Of 45 contract actions, valued at $101.8 million, AQD-Herndon contracting officials did
not adequately compete 2 contract actions, valued at $1.3 million, and did not support the
use of sole-source contracts for 3 contract actions, also valued at $1.3 million. For two
contract actions, AQD-Herndon did not attempt to obtain more than one quote. For three
contract actions, AQD-Herndon’s use of sole-source justifications resulted from poor
acquisition planning rather than a legitimate need (see Table 3).




                                                7
                   Table 3. Inadequate Use of Sole-Source Contracts
      AQD-Herndon                   Information Contained in Contract Award Summaries
      Contract Action
    INN10PD18216             It would be impractical to conduct a meaningful competition by the
                             time the current task order expires February 28, 2010, without a break
                             in service.
    INN10PD18224             It would be impractical to conduct a meaningful competition by the
                             time the current task order expires on February 28, 2010, without a
                             break in service.
    INN10PD18229             The current task order expires March 4, 2010, and cannot be extended.*
   *The Justification and Approval was not signed until March 3, 2010.

AQD-Sierra Vista did not have any competition problems. Appendix D identifies the
AQD-Herndon contract actions that had competition and sole-source problems.

DOI Advertised DoD Purchases for Short Periods of Time
Of the 45 contract actions, valued at $101.8 million, 9 contract actions, valued at
$30.5 million, were advertised for short periods of time. The nine requests for quote
were advertised for 22 days or less, and eight of the nine were advertised for 16 days or
less (see Table 4).

           Table 4. Contract Actions Advertised for Short Periods of Time
          Contract            Contract Action             Number of               Days RFQ*
           Action                Amount                 Offers Received           Advertised
       INN10PD18350                   $216,688                 1                   15 days
       INN10PD18352                    216,688                 1                   11 days
       INN10PD18140                  1,086,126                 1                   14 days
       INN10PD18425                    213,469                 1                   11 days
       INN10PD20046                 11,714,234                 1                   22 days
       INN10PD20038                 11,028,479                 1                   15 days
       IND10PD20053                    526,358                 1                    5 days
       IND10PD20062                  2,287,040                 1                    4 days
       IND10PD20029                  3,207,434                 1                   16 days
         Total                     $30,496,516
       *Request for quote.
       Note: Amounts are rounded.

The Director, Defense Procurement and Acquisition Policy, issued two memoranda to
DoD Components, providing guidance on solicitations that are open for fewer than
30 days and receive only one offer. On November 24, 2010, the Director issued
“Improving Competition in Defense Procurements.” The memorandum stated:

                If a solicitation was open for less than 30 days and only one offer was
                received, the contracting officer shall re-advertise the solicitation for a


                                                    8
               minimum of an additional 30 days unless a waiver is obtained from the
               head of the contracting activity. Further, if the solicitation was open
               for at least 30 days, or has been re-advertised and still only one offer is
               received, the contracting officer shall conduct negotiations with the
               offeror, unless this requirement is specifically waived by the head of
               the contracting activity. The basis for these negotiations shall be either
               certified cost or pricing data or other than certified cost or pricing data,
               as appropriate. In no event, should the negotiated price exceed the
               price originally offered.

On April 27, 2011, the Director issued another memorandum, “Improving Competition in
Defense Procurements – Amplifying Guidance,” in response to questions raised about the
earlier memorandum. The April 27, 2011, memorandum stated:

               The policy guidance set out in the November 24, 2010, memorandum is
               applicable to all competitive procurements of supplies and services
               above the Simplified Acquisition Threshold (SAT), including
               commercial items and construction. Further, it covers procurements
               accomplished under the procedures in Federal Acquisition Regulation
               (FAR) and Defense Federal Acquisition Regulation Supplement
               (DFARS) parts/subparts 8.4, 12, 13, 14, 15, and 16.5. Exceptions to
               this policy are procurements in support of emergency acquisitions for
               contingency operations, humanitarian assistance, disaster relief,
               peacekeeping operations, or recovery from nuclear, biological,
               chemical, or radiological attacks against the United States.

The Director issued the memoranda after DOI awarded the 56 contract actions.
Nevertheless, the memoranda should also apply to other Federal agencies that perform
assisted interagency acquisitions for DoD. Accordingly, the Under Secretary of Defense
for Acquisition, Technology and Logistics should initiate a change to the Defense Federal
Acquisition Regulation Supplement to include information contained in both policy
memoranda.

DoD Reviews of Contractor Cost Proposals Were
Inadequate
Of 42 contract actions, valued at $91.4 million, DoD requesting activity officials
performed inadequate reviews of contractor cost proposals for 31 contract actions, valued
                                             at $77.1 million. DoD reviews consisted of
   DoD reviews consisted of cursory
                                             cursory statements instead of a specific
     statements instead of a specific
                                             analysis that explained the appropriateness of
       analysis that explained the
                                             the various cost elements in the contractors’
  appropriateness of the various cost
                                             cost proposals. The inadequate reviews caused
    elements in the contractors’ cost
                                             more problems. Specifically, AQD-Herndon
               proposals.
                                             and AQD-Sierra Vista contracting officials
used the inadequate reviews to support that the prices DoD paid were fair and reasonable.
The reviews were especially important for contract actions involving only one offer. In
the following review for contract action N10PD18229, valued at $956,277, DoD
requesting activity officials did not state whether DoD officials determined that the


                                                    9
contractor-proposed labor hours were adequate, or even whether DoD officials reviewed
labor hours.
               4 March 2010

               Army National Guard has reviewed the NOBLIS’ response to
               RFQ#N10PS18229 and find it technically responsive and acceptable.

               The labor categories and skill levels appear reasonable to accomplish
               the ongoing tasks except for the addition of a new labor category of
               “Senior Principal.” Since it is not clear what the function of the Senior
               Principal will be, we are recommending removing the labor category.

In the review for contract action N10PD20038, valued at $11 million, instead of a
detailed analysis, the review of the contractor’s cost proposal consisted of a checklist
with no explanation of how the reviewer determined that the various cost elements were
appropriate.
       FROM: U.S. Army National Guard, Training Division, 111 S. George Mason
       Drive, Arlington, VA 22204

       SUBJECT: Technical Evaluation of Proposal Entitled “EXPORTABLE COMBAT TRAINING
       CAPABILITY PREPARATION, EXECUTION, AND POST EXERCISE ACTIVITIES for the
       2010 Exportable Combat Training Capability Bridge,” dated 21 May 2010, SRI Proposal EXU 10-
       144R1

             1) My review of labor categories and mix proposed finds the proposal appropriate.
                Yes No N/A Yes with comments________ No with comments_______

             2) Proposed ODCs were detailed and are appropriate for the task.
               Yes    No N/A Yes with comments________ No with comments_______

             3) Personal proposed are qualified to perform work (education, experience, certifications)
               Yes    No N/A Yes with comments________ No with comments_______

             4) The quantity of labor hours is appropriate to do the task.
               Yes    No N/A Yes with comments________ No with comments_______

             5) I have read and fully comprehend the proposal.
               Yes      No N/A Yes with comments________ No with comments_______

             6) Travel estimates + costs are appropriate for the task.
               Yes     No N/A Yes with comments________ No with comments_______

             7) To the best of my knowledge, this proposal satisfies all aspects of the requirements
               Yes     No N/A Yes with comments________ No with comments_______

Appendices D and E identify the respective AQD-Herndon and AQD-Sierra Vista
contract actions in which DoD requesting activities performed inadequate reviews of
contractor cost proposals. During three prior DOI audits, we also identified problems
related to inadequate reviews of contractor cost proposals (see Table 5).



                                                  10
Table 5. Inadequate Reviews of Contractor Cost Proposals Identified During Three
                               Prior DOI Audits
           DoD-IG Report Title             Report No.     Report        No. of Contract
                                                           Date          Actions With
                                                                       Inadequate DoD
                                                                     Reviews of Contractor
                                                                        Cost Proposals
                                                                          (Services)
FY 2005 DoD Purchases Made Through the
                                          D-2007-044     01/16/07           19 of 24
Department of the Interior
FY 2006 and FY 2007 DoD Purchases Made
                                          D-2008-066     03/19/08            3 of 24
Through the Department of the Interior
Follow-up on DoD Purchases Made Through
                                          D-2008-122     08/18/08            6 of 22
the Department of the Interior


Information in IGCEs Was Not Supported
Of 40 contract actions for services, valued at $89.6 million, DoD requesting activity
officials prepared inadequate IGCEs for 38 contract actions, valued at $84.1 million.
Specifically, the DoD requesting activity provided IGCEs that did not identify the
preparer, when they were prepared, how the preparer developed the estimated costs, and
what reference materials the preparer used. The IGCEs were important because AQD-
Herndon and AQD-Sierra Vista contracting officials used them to evaluate the prices
proposed by contractors. Appendices D and E identify the respective AQD-Herndon and
AQD-Sierra Vista contract actions in which DoD requesting activities prepared
inadequate IGCEs. Two prior DOI audits also identified problems related to inadequate
IGCEs for service contracts (see Table 6).

             Table 6. Prior DOI Audits That Identified IGCE Problems
          DoD-IG Report Title             Report No.    Report      No. of Contract Actions
                                                         Date        With IGCE Problems
                                                                           (Services)
FY 2005 DoD Purchases Made Through the
                                          D-2007-044    01/16/07           22 of 24
Department of the Interior
FY 2006 and FY 2007 DoD Purchases Made
                                          D-2008-066    03/19/08           11 of 11
Through the Department of the Interior


DoD Paid Unnecessary Fees When DOI Used Other
Federal Agencies’ Contracts to Make Purchases for DoD
DoD paid AQD-Herndon and AQD-Sierra Vista $2.9 million in unnecessary fees for its
contracting support for 44 contract actions, valued at $95.3 million, of 56 contract
actions, valued at $133.4 million. Specifically, AQD-Herndon and AQD-Sierra Vista




                                            11
used other Federal agencies’ contracts and existing DoD contracts to make the purchases
for DoD. Of the 44 contract actions:

   •     33 contract actions, valued at $68.9 million, were GSA Federal supply schedule
         orders,
   •     10 contract actions, valued at $24.4 million, were orders issued under existing
         DoD contracts, and
   •     1 contract action, valued at $2 million, was an order issued from a NASA
         Solutions for Enterprise-Wide Procurement contract.

While AQD-Herndon and AQD-Sierra Vista contracting officials were permitted to use
other Federal agencies’ contracts for DoD purchases, DoD requesting activities should be
required to obtain approval from their head of contracting for these types of purchases.
In addition, DoD contracting offices should have had the expertise to make purchases
such as help desk services and life preservers, which AQD-Herndon purchased for the
Army and Navy from two of the contracts we reviewed. Appendix C identifies the
contract vehicle used for the 56 contract actions reviewed in this report.

DoD Paid Unnecessary Fees When DOI Used GSA Federal
Supply Schedule
DoD paid AQD-Herndon and AQD-Sierra Vista unnecessary estimated service fees of
$2.1 million for GSA Federal supply schedule orders for 33 contract actions, valued at
$68.9 million. The fees ranged from 1.5 to 5 percent, for an average of approximately
2.99 percent of the total amount obligated. Overall, during FY 2010, AQD-Herndon and
AQD-Sierra Vista contracting officials used GSA Federal supply schedules for
203 contract actions, valued at $181.1 million, for purchases made on behalf of DoD.
DoD would have paid AQD-Herndon and AQD-Sierra Vista service fees for these
purchases. During two previous DOI interagency audits, AQD-Herndon and AQD-
Sierra Vista contracting officials used GSA Federal supply schedules to make purchases
for DoD for 46 of 92 contract actions (see Table 7).

       Table 7. Prior Audits Showing DOI Use of GSA Federal Supply Schedules
                                 for DoD Purchases
           DoD IG Report Title            Report No.     Report Date       No. of Contract
                                                                           Actions Made
                                                                         Using GSA Federal
                                                                          Supply Schedules
FY 2005 DoD Purchases Made Through the    D-2007-044       01/16/07           19 of 49
Department of the Interior
FY 2006 and FY 2007 DoD Purchases Made    D-2008-066       03/19/08           27 of 43
Through the Department of the Interior
 Total                                                                        46 of 92




                                            12
DoD Paid Unnecessary Fees When DOI Used Existing DoD
Contracts
DoD paid AQD-Herndon unnecessary fees of $650,460 for contracting support for
10 contract actions, valued at $24.4 million. AQD-Herndon contracting officials used
existing DoD contracts to make those purchases for DoD (see Table 8).

  Table 8. Existing DoD Contracts That AQD-Herndon Used for DoD Purchases
     DoD Contract         AQD-Herndon Order           Award              Fees Paid
                                                      Amount
  W91QUZ09D0043          INN10PD18265                  $3,782,801            $113,484
  W91QUZ06D0016          INN10PD18153                   1,500,000              48,788
                         INN10PD18153/01                  522,920              20,917
                         INN10PD18153/03                   50,000               2,000
  W91QUZ07D0006          INN10PD18428                      18,755                 750
  W91QUZ07D0004          INN09PD10053/08               10,522,821             263,071
                         INN09PD10053/09                5,346,558             133,664
                         INN09PD10053/11                  300,128               7,503
                         INN09PD10053/14                2,274,824              56,871
  DABL0103A1006          IND10PD18613                      85,288               3,412
   Total                                              $24,404,095            $650,460
   Note: Amounts are rounded.

The DoD contracting activity that awarded the contracts and the three DoD requesting
activities that used AQD-Herndon are all located in the Washington metropolitan area
(see Figure 3). According to the contract files, the DoD requesting activities instructed
AQD-Herndon to use the DoD contracts for their purchases. This situation also occurred
in two previous audits. DoD Inspector General Report No. D-2007-044, “FY 2005 DoD
Purchases Made Through the Department of the Interior,” January 16, 2007, disclosed
that AQD-Herndon contracting officials awarded 49 contract actions from existing DoD
contracts in FY 2005 for DoD purchases. DoD Inspector General Report No. D-2008-
007, “Task Orders on the Air Force Network-Centric Solutions Contract,” October 25,
2007, disclosed that the GSA placed 91 orders for DoD customers on Air Force contracts.




                                           13
Figure 3. Process by Which Existing DoD Contracts Were Used for DoD Purchases




DoD Paid Unnecessary Fees When DOI Used a NASA Contract
DoD paid AQD-Herndon $101,626.37 in unnecessary fees for its contracting support for
one contract action, valued at $2 million. AQD-Herndon contracting officials used an
existing NASA contract for the DoD purchase.

Conclusion
The price reasonableness problems occurred because AQD-Herndon and AQD-
Sierra Vista contracting officials relied on DoD requesting activities’ inadequate reviews
of contractor cost proposals and IGCEs as their primary basis for determining that the
prices paid were fair and reasonable. The competition problems occurred because AQD-
Herndon and AQD-Sierra Vista contracting officials did not attempt to obtain more offers
after receiving only one offer and they advertised requirements for short periods of time,


                                           14
which may have been the reason only one offer was received. Until DoD and DOI
resolve the issues in this finding, DoD will not be assured that it is receiving best value.

Recommendations, Management Comments, and Our
Response
A.1 We recommend that the Secretary of the Interior direct the National Business
Center to instruct Acquisition Services Directorate-Herndon and Acquisition
Services Directorate-Sierra Vista to:

       a. Inform DoD requesting activities of their intent to use contracts from
other Federal agencies for DoD purchases.

Department of the Interior Comments
The Secretary of the Interior agreed, stating that the Department of the Interior Office of
the Secretary, National Business Center Acquisition Services Directorate, will deploy a
management corrective action plan by June 30, 2012, to strengthen the Interior’s process
of informing DoD requesting activities of the intent to use contracts from other Federal
agencies for DoD purchases.

      b. Better support price reasonableness determinations for contract actions
awarded using competitive procedures where only one offer is received.

Department of the Interior Comments
The Secretary of the Interior agreed, stating that the Department of the Interior Office of
the Secretary, National Business Center Acquisition Services Directorate, will enhance
price reasonableness determinations for contract actions awarded using competitive
procedures when only one offer is received. He further stated that the Acquisitions
Services Directorate will also implement policies and procedures to ensure that price
reasonableness determinations are adequately supported and that competition is sought to
the maximum extent practicable. He stated that implementation will be completed by
June 30, 2012.

Our Response
The Secretary of the Interior’s comments were responsive, and no further comments are
required.

A.2. We recommend that the Under Secretary of Defense for Acquisition,
Technology, and Logistics:

       a. Instruct DoD requesting activities to obtain approval from their Heads of
Contracting at their respective contracting activities in situations when Acquisition
Services Directorate-Herndon or Acquisition Services Directorate-Sierra Vista
intend to use other Federal agencies’ contracts to make purchases for DoD.



                                             15
Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments
The Under Secretary of Defense for Acquisition, Technology, and Logistics agreed,
stating that his office shared the concern that DoD should be mindful of the fees paid to
assisting agencies for services and the use of DoD contract vehicles to meet DoD
requirements. He also stated that for both direct and assisted acquisitions, Defense
Federal Acquisition Regulation Supplement 217.7802 requires DoD Components to
establish and maintain procedures for reviewing and approving orders for supplies and
services under non-DoD contracts and for assessing the cost-effectiveness of the
approach.

Our Response
The Under Secretary of Defense for Acquisition, Technology, and Logistics comments
were nonresponsive. Although the Under Secretary of Defense for Acquisition,
Technology, and Logistics agreed, he did not address the action his office is going to take
to address the recommendation. Therefore, we request that the Under Secretary of
Defense for Acquisition, Technology, and Logistics provide additional comments in
response to the final report. The comments should identify specific actions that will
ensure that DoD requesting activities obtain approval from their heads of contracting at
their respective contracting activities when AQD-Herndon or AQD-Sierra Vista intend to
use other Federal agencies’ contracts to make purchases for DoD

       b. Initiate a change to the Defense Federal Acquisition Regulation
Supplement to include information contained in the November 24, 2010, and
April 27, 2011, Under Secretary of Defense for Acquisition, Technology, and
Logistics memoranda related to improving competition in Defense procurements.

Under Secretary of Defense for Acquisition, Technology, and
Logistics Comments
The Under Secretary of Defense for Acquisition, Technology, and Logistics agreed,
stating that DoD has generated multiple Defense Federal Acquisition Regulation
Supplement cases in support of the Better Buying Power initiative. He further stated that
Case 2011-D013 is directly related to improving competition in DoD procurements by
implementing a DoD Better Buying Power initiative to address using competitive
procedures in procurements in which only one offer is received. He also stated that the
Defense Acquisition Regulation Council is in the process of completing its review of
public comments and preparing a final rule, which is planned for release sometime in
April or May 2012.

Our Response
The Under Secretary of Defense for Acquisition, Technology, and Logistic comments
were responsive, and no further comments are required. We reviewed Defense Federal
Acquisition Regulation Supplement Case 2011-D013 and determined that its
implementation will satisfy our recommendation.


                                            16
Finding B. Potential Bona Fide Needs Rule
Violations
Five potential bona fide needs rule violations, valued at $6.9 million, may have occurred
for the following reasons.

   •   Policy in the DoD Financial Management Regulations for Economy Act orders
       and non-Economy Act orders was not consistent.

   •   The “reasonable time” standard for Economy Act orders was unclear.

   •   AQD-Sierra Vista accepted DoD purchases through September 30, 2010, the last
       day of the fiscal year. This made it difficult, if not impossible, for contract
       performance to begin during the funds’ period of availability, as required by the
       DoD Regulation 7000.14-R, “DoD Financial Management Regulation” (DoD
       FMR).

Of 81 DoD military interdepartmental purchase requests (MIPRs), 38 MIPRs, related to
27 of the 56 contract actions, were not specific. The MIPRs were not specific because
DoD requesting activities did not follow existing guidance related to the need to be
specific when defining requirements. As a result, DoD did not have adequate assurance
that purchases DOI made on behalf of DoD were properly funded.

Applicable Criteria
Bona Fide Needs Rule
Appropriations are generally available for set periods. An agency incurs a legal
obligation to pay money within an appropriation’s period of availability. Funds are no
longer available for use if an agency fails to obligate funds before they expire. Expired
funds retain their “fiscal year identity” for 5 years after the end of the period of
availability. During this time, the funds are available to adjust existing obligations or to
liquidate prior valid obligations.

According to section 1502(a), title 31, United States Code (31 U.S.C. § 1502[a])
appropriations are available for the bona fide needs of an appropriation’s period of
availability. The bona fide needs rule states:

               The balance of an appropriation or fund limited for obligation to a
               definite period is available only for payment of expenses properly
               incurred during the period of availability or to complete contracts
               properly made within that period of availability and obligated
               consistent with section 1501 of this title. However, the appropriation or
               fund is not available for expenditure for a period beyond the period
               otherwise authorized by law.




                                                 17
Section 1501, Title 31, United States Code
Section 1501, title 31, United States Code, “Documentary Evidence Requirement for
Government Obligations” subparagraph (a) states that an amount shall be recorded as an
obligation of the United States Government only when supported by documentary
evidence of a binding agreement between an agency and another person (including an
agency) that is in writing and for a purpose authorized by law.

Antideficiency Act
Congress passed the Antideficiency Act to curb the fiscal abuses that frequently created
“coercive deficiencies” that required supplemental appropriations. The Antideficiency
Act consists of several statutes, which include administrative and criminal sanctions for
unlawful use of appropriated funds (31 U.S.C. §§ 1341, 1342, 1350, 1351, and 1511-
1519). These statutory provisions enforce the constitutional budgetary powers entrusted
to Congress with respect to the purpose, time, and amount of expenditures made by the
Federal Government. Violations of other laws may trigger violations of Antideficiency
Act provisions, such as the “bona fide needs rule” (31 U.S.C. § 1502[a]). Violations of
the Antideficiency Act may result in administrative and/or criminal sanctions against
those responsible.

Economy Act
Section 1535, title 31, United States Code, “Agency Agreements,” commonly referred to
as the Economy Act, subparagraph (d), states that an order placed or agreement made
under this section obligates an appropriation of the ordering agency or unit. The amount
obligated is deobligated to the extent that the agency or unit filling the order has not
incurred obligations, before the end of the period of availability of the appropriation, in
(1) providing goods or services or (2) making an authorized contract with another person
to provide the requested goods or services.

DoD Financial Management Regulation
Annual Appropriation Acts define the use of each appropriation and set specific timelines
for use of the appropriations. The DoD FMR, volume 2A, chapter 1, provides guidelines
on the most commonly used DoD appropriations for determining the correct
appropriation to use when planning acquisitions. Chapters 3 and 18 provide guidelines
for Economy Act and non-Economy Act orders, respectively.

Section 2410a, Title 10, United States Code
Section 2410a, title 10, United States Code, permits the performance of severable
services to begin in one fiscal year and end in the next provided the period of
performance does not exceed 12 months.

Five Potential Bona Fide Needs Rule Violations
Five potential bona fide needs rule violations may have occurred (see Table 9). The
violations were related to contract actions that AQD-Sierra Vista contracting officials
awarded and were subject to the Economy Act. Four of the five potential violations were
for severable services, and all five were subject to annual funding fiscal limitations. The

                                            18
Assistant Secretary of the Army (Financial Management and Comptroller) should instruct
activities having potential bona fide needs rule violations to initiate action and oversee
the process to adjudicate the potential violations. Each violation is discussed after
Table 9.

   Table 9. Details Related to the Five Potential Bona Fide Needs Rule Violations
   Contract       Contract               DoD             DoD                      DoD
                 Award Date             MIPR.            MIPR               Requesting Activity
                                                        Amount
IND10PD20076       09/30/10      MIPR0HDATIAZ02           $200,000     National Guard Bureau,
                                                                       Arlington, Virginia
IND10PB20014       09/16/10      MIPR0LDOIRE207           1,274,831    U.S. Army Intelligence Center,
                                 and Amendment 1            530,000    Fort Huachuca, Arizona
IND10PD20073       09/30/10      MIPR10D1JW0013           1,800,000    Office of the Assistant Secretary
                                                                       of the Army, Manpower and
                                                                       Reserve Affairs
IND10PB20009       09/19/10      MIPR0LDO1RE206           1,658,061    U.S. Army Intelligence Center,
                                                                       Fort Huachuca, Arizona
IND10PD20028       09/08/10      MIPR0LH8ARD041           1,920,000    U.S. Army Medical Command,
                                                                       Fort Sam Houston, Texas
 Total                                                  $6,852,892
 Note: Amounts are rounded.

Contract Action IND10PD20076
The contractor did not begin performance during the FY 2010 Operation and
Maintenance (O&M) funds’ period of availability (see Table 10). Instead, performance
began on October 1, 2010, which was the beginning of FY 2011. Accordingly, FY 2011
O&M funds should have been used. On September 9, 2010, National Guard Bureau,
Camp Dodge, Johnston, Iowa, officials issued MIPR0HDATIAZ02 to provide $200,000
of funds to AQD-Sierra Vista. The funds used were FY 2010 Army National Guard
O&M funds, which were available for use until September 30, 2010. The funds were to
be used to obtain nonpersonal services, to comply with the DoD Information Assurance
Certification and Accreditation Process, as required by the Federal Information Security
Management Act of 2002 and DoD Information Assurance Certification and
Accreditation Process. On September 30, 2010, AQD-Sierra Vista officials accepted the
DoD funds and obligated the funds by awarding contract action IND10PD20076, valued
at $189,066. According to documentation in the contract files, the services were
severable.

 Table 10. Information From Invoice Records for Contract Action IND10PD20076
     MIPR and Amount          Invoice      Period Work Was Performed            Invoice Amount
    MIPR0HDATIAZ02            004027            10/01/10 to 10/31/10                        $28,750
    $200,000.00               004048            11/01/10 to 11/30/10                         48,477
                              004068            12/01/10 to 12/31/10                         15,704
    Total                                                                                   $92,931
    Note: Amounts are rounded.



                                                19
Contract Action IND10PB20014
The contractor did not begin performance during the FY 2010 O&M funds’ period of
availability (see Table 11). Instead, performance began on October 1, 2010, which was
the beginning of FY 2011; therefore, FY 2011 O&M funds should have been used. On
August 5, 2010, U.S. Army Intelligence Center, Fort Huachuca, Arizona, officials issued
MIPR0LDOIRE207 to provide $1,274,831 of funds to AQD-Sierra Vista. On August 13,
2010, U.S. Army Intelligence Center, Fort Huachuca, Arizona, officials issued
MIPR0LDOIRE207, amendment 1, to provide an additional $530,000 of funds to AQD-
Sierra Vista. The funds on these two MIPRs were FY 2010 Army O&M funds, which
were available for use until September 30, 2010. The funds were to be used to obtain
contractor expertise for follow-on efforts resulting from the 2009 and 2010 Warfighter
Information Capability Assessment of information and intelligence collection,
processing, analysis, dissemination, and integration with the combatant commander's
information needs. Information in the contract file stated that the services were
severable.

 Table 11. Information From Invoice Records for Contract Action IND10PB20014
  MIPR and Amount               Invoice.   Period Work Was Performed     Invoice Amount
  MIPR0LDORE207          INV-0001579465          10/01/10 to 10/29/11           $120,280
  $1,274,831.04
                         INV-0001580035          11/05/10 to 11/26/11            122,403
  Amendment 1
  $530,000.00            INV-0001611381          12/03/10 to 12/31/11            122,134
   Total                                                                        $364,817
   Note: Amounts are rounded.

Contract Action IND10PD20073
The contractor did not begin performance during the FY 2010 O&M funds’ period of
availability (see Table 12). After reviewing how AQD-Sierra Vista used the funds, a
potential bona fide needs rule violation occurred whether the services were severable or
nonseverable. AQD-Sierra Vista was required by the bona fide needs rule (31 U.S.C. §
1502[a]) and DoD FMR volume 3, chapter 8, paragraph 080303.C to fund the entire
contract action, $9,392,385, at award if the services were nonseverable which it did not
do (see Government Accountability Office Decision B-317139, June 1, 2009). If the
services were severable, the funds used could be FY 2010 funds only if the services
began in FY 2010, in order to comply with 10 U.S.C. § 2410(a) and DoD FMR, volume
3, chapter 8, paragraph 080303.C, which did not happen (see Table 12). Section 2410a,
title 10, United States Code is a statutory authority that permits the full obligation of
severable contracts that begin in 1 fiscal year and end in the next, provided the contract
period does not exceed 1 year. The contract period for performance of severable services
must begin during the funds’ period of availability and may not exceed the funds’ period
of availability, absent statutory authority or a legally recognized exception. On
September 18, 2010, officials from the Office of the Assistant Secretary of the Army,
Manpower and Reserve Affairs, issued MIPR10D1JW0013 to provide $1,800,000 of
funds to AQD-Sierra Vista. The funds were FY 2010 Army O&M funds, which were
available for use until September 30, 2010. The funds were to be used for contractor
support to develop, maintain, and provide content support for a Web-based benefits and
                                            20
counseling information and support system for the Deputy Chief of Staff, G1, Human
Resources Policy Directorate. On September 30, 2010, AQD-Sierra Vista officials
accepted the DoD funds and obligated the funds by awarding contract action
IND10PD20073, valued at $1,773,399. According to information in the contract files,
the services were nonseverable.

 Table 12. Information From Invoice Records for Contract Action IND10PD20073
    MIPR and Amount             Invoice   Period Work Performed      Invoice Amount
   MIPR10D1JW0013          FY10-062449      10/08/10 to 10/29/10             $99,448
   $1,800,000.00           FY10-073420      12/03/10 to 12/31/10             257,003
                           FY10-065391      11/05/10 to 11/26/10             248,257
                                  1         10/04/10 to 10/31/10             124,775
                                  2         11/01/10 to 11/30/10             117,047
                                  3         12/01/10 to 12/31/10             131,166
    Total                                                                   $977,696
    Note: Amounts are rounded.

Contract Action IND10PB20009
The contractor did not begin performance during the FY 2010 O&M funds’ period of
availability (see Table 13). Instead, performance began on October 1, 2010, which was
the beginning of FY 2011. Accordingly, FY 2011 O&M funds should have been used.
On August 5, 2010, U.S. Army Intelligence Center of Excellence, Fort Huachuca,
Arizona, officials issued MIPR0LDO1RE206, to provide $1,658,061 of funds to AQD-
Sierra Vista. The funds were FY 2010 Army O&M funds, which were available for use
until September 30, 2010. The funds were to be used to document the intelligence,
surveillance, and reconnaissance operations and organizations down to the individual
soldier level, across the full spectrum of military operations. On September 24, 2010,
AQD-Sierra Vista officials accepted the DoD funds. On September 29, 2010, AQD-
Sierra Vista officials issued contract action IND10PB20009, valued at $1,534,951, for
this DoD purchase.

 Table 13. Information From Invoice Records for Contract Action IND10PB20009
  MIPR and Amount           Invoice       Period Work Performed       Invoice Amount
  MIPR0LDO1RE206       INV-0001579348        10/01/10 to 10/29/10            $120,413
  $1,658,061.25        INV-0001580062        11/05/10 to 11/26/10             120,413
                       INV-0001611396        12/03/10 to 12/24/10             122,218
   Total                                                                     $363,044
   Note: Amounts are rounded.

Contract Action IND10PD20028
The contractor did not begin performance during the FY 2010 O&M funds’ period of
availability (see Table 14). Instead, performance began on October 1, 2010, which was
the beginning of FY 2011. Accordingly, FY 2011 O&M funds should have been used.
On August 18, 2010, Headquarters U.S. Army Medical Command, Fort Sam Houston,

                                          21
Texas, officials issued MIPR0LH8ARD041, to provide $1,920,000 of funds to AQD-
Sierra Vista. The funds were FY 2010 Defense Health Program O&M funds, which were
available for use until September 30, 2010. The funds were to be used for engineering,
integration, and support services required to operate, manage, and sustain the technical
architecture, platforms, and clinical and business systems required for clinic operations.
On September 2, 2010, AQD-Sierra Vista officials accepted the funds. On September 8,
2010, AQD-Sierra Vista officials obligated the funds when awarding contract action
IND10PB20028, valued at $1,920,000. According to information in the contract files,
the services were severable.

 Table 14. Information From Invoice Records of Contract Action IND10PD20028
    MIPR and Amount          Invoice         Period Work Performed       Invoice Amount
   MIPR0LH8ARD041                261             10/01/10 to 10/31/10           $52,703
   $1,920,000.00                 269             11/01/10 to 11/30/10           118,581
                                 301             12/01/10 to 12/31/10           160,808
    Total                                                                      $332,092
    Note: Amounts are rounded.

Contributing Factors
The policy in the DoD Financial Management Regulations for Economy Act orders and
non-Economy Act orders is not consistent. In addition, the “reasonable time” standard
for Economy Act orders is unclear. As a result, AQD-Sierra Vista officials accepted
DoD purchases through September, 30, 2010, the last day of the fiscal year. This made it
difficult, if not impossible, for contract performance to begin during the funds’ period of
availability, as required by the DoD FMR. For example, AQD-Sierra Vista officials
awarded two of the five contract actions, which had potential bona fide rule issue
violations, on September 30, 2010, the last day of the DoD funds’ period of availability.
MIPRs were not specific because DoD requesting activities did not follow existing
guidance related to the need to be specific when defining requirements.

Economy Act and Non-Economy Act Policy Is Not Consistent
Generally, under the bona fide needs rule; the Government should obligate annual funds
from the current year for current-year needs. This caused problems for the Government
when a severable service contract crossed into the next fiscal year. Congress provided
some flexibility with 10 U.S.C. § 2410a, permitting the use of current-year funds for
severable services crossing a fiscal year, where the performance of the services begins in
the current year, as long the period of performance does not exceed 1 year. The bona fide
needs rule and the flexibility provided by 10 U.S.C. § 2410a apply equally to Economy
Act and non-Economy Act orders. To comply with these laws, the policy for Economy
Act orders should be changed to match DoD FMR policy for non-Economy Act orders,
requiring severable services to begin during the funds’ period of availability.

Standard of a “Reasonable Time” Is Vague
DoD FMR, volume 11A, chapter 3, applies to Economy Act orders. Chapter 3,
paragraph 030405, provides that services performed under the Economy Act “shall be

                                            22
expected to begin within a reasonable time” after the acceptance of the order by the
servicing organization. This vague standard of a “reasonable time” led to end-of-year
ordering where, although the contract order had been placed in the fiscal year of the
funds, no work began until well into the next fiscal year, thereby using funds from the
last fiscal year for services beginning in a current fiscal year. This violated the bona fide
needs rule (31 U.S.C. § 1502a), which requires funds to be obligated for services needed
during the period of the funds’ availability. For the five potential bona fide needs rule
violations, no services were expected to be performed during the period the funds were
available for obligation. This policy also violated paragraph 030407 of chapter 3 and
violated 10 U.S.C. § 2410a for the same reason. The policy for Economy Act orders is in
stark contrast to the policy for non-Economy Act orders, found at volume 11A, chapter
18, of the DoD FMR, Paragraph 180302 B.1 states: “The performance of severable
services must begin during funds period of availability.” This policy is necessary to
comply with the bona fide needs rule and the authority provided under 10 U.S.C. §
2410a.

DoD MIPRs Were Not Specific
DoD officials prepared MIPRs that were not specific for 38 of 81 MIPRs. The 38 MIPRs
were not specific because they did not define their requirements in detail, which they
need to do to establish a valid obligation, pursuant to 31 U.S.C. § 1501. DoD FMR,
volume 11A, chapters 3 and 18 identify the requirements for specificity. DoD FMR
volume 11A, chapter 3 addresses economy act orders. The AQD-Sierra Vista contract
                                         actions were economy act orders. The AQD-
    The 38 MIPRs that were not           Herndon contract actions were non-Economy Act
    specific did not have a clear        orders. DoD FMR, volume 11A, chapter 18
      description of the services        addresses non-Economy Act orders. The
        purchased, a period of           38 MIPRs that were not specific did not have a
        performance, or both.            clear description of the services purchased, a
                                         period of performance, or both. Appendix F
identifies the DoD MIPRs that were not specific. DoD officials also prepared MIPRs that
were not specific during two previous DOI audits (see Table 15).

 Table 15. Prior DOI Audits Where We Identified MIPRs That Were Not Specific
          DoD-IG Report Title              Report No.      Report Date     MIPRS That Were
                                                                             Not Specific
FY 2005 DoD Purchases Made Through the     D-2007-044       01/16/07            65 of 103
Department of the Interior
FY 2006 and FY 2007 DoD Purchases Made     D-2008-066       03/19/08            31 of 47
Through the Department of the Interior


Conclusion
The five potential bona fide needs rule violations occurred primarily because the policy
in the DoD FMR for Economy Act orders and non-Economy Act orders is not consistent
and the “reasonable time” standard for Economy Act orders is unclear. In addition,
AQD-Sierra Vista contracting personnel accepted DoD purchases at the end of the fiscal

                                             23
year, making it difficult, if not impossible, for contract performance to begin during the
funds’ period of availability. As a result, funds were not used for the purposes mandated
by Congress.

Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer:

       a. Update the DoD Financial Management Regulation to state that the bona
fide needs rule and the flexibility provided by section 2410a, title 10, United States
Code, applies equally to Economy Act and non-Economy Act orders. Specifically,
the policy for Economy Act orders should be changed to match that for non-
Economy Act orders, requiring severable services to begin during the funds’ period
of availability.

Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments
The Under Secretary of Defense (Comptroller)/Chief Financial Officer agreed, stating
that the Office of the Deputy Chief Financial Officer will update DoD Financial
Management Regulation 7000.14.R, volume 11A, chapter 3, “Economy Act,” and
chapter 18, “Non-Economy Act,” to state that the bona fide needs rule and the flexibility
provided by section 2410a, title 10, United States Code, applies equally to Economy Act
and non-Economy Act orders.

        b. Instruct DoD Components to follow existing guidance on the need to be
specific in defining requirements, including a clear description of the services or
goods being purchased and a period of performance, when they prepare military
interdepartmental purchase requests.


Under Secretary of Defense (Comptroller)/Chief Financial Officer
Comments
The Under Secretary of Defense (Comptroller)/Chief Financial Officer agreed, stating
that the Office of the Deputy Chief Financial Officer will issue a policy memorandum to
remind Components to adhere to existing guidance in DoD Financial Management
Regulation 7000.14.R, volume 11A, chapter 3, paragraph 030401, and chapter 18,
paragraph 180203A.

Our Response
The Under Secretary of Defense (Comptroller)/Chief Financial Officer’s comments were
responsive, and no further comments are required.

B.2. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller) instruct activities having potential bona fide needs
                                            24
rule violations to initiate action and oversee the process to adjudicate the potential
violations.

Department of the Army Comments
The Assistant Secretary of the Army (Financial Management and Comptroller) agreed,
stating that his office is reviewing the five contracts and issued memoranda on
August 17, 2011, directing the appropriate commands to provide his office with
additional information on these contract actions and to report any suspected violations.
He stated that the initial review of the Army National Guard contract indicated that the
contract was funded correctly and was a bona fide need of FY 2010 and that the
remaining reviews will be completed in the next 90 days.

Our Response
The Assistant Secretary of the Army (Financial Management and Comptroller) comments
were responsive, and no further comments are required.




                                            25
Appendix A. Scope and Methodology
We conducted this performance audit from October 2010 through April 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives. We performed this audit as required by
Section 801, Public Law 110-181, of the National Defense Authorization Act for Fiscal
Year 2008, January 28, 2008. The Act requires the Inspectors General of DoD and DOI
to conduct a joint review of interagency transactions between DoD and DOI.

Universe Information
Initially, we used the Federal Procurement Data System-Next Generation database to
identify a universe of assisted acquisitions that AQD-Herndon and AQD-Sierra Vista
awarded for DoD purchases during FY 2010. We selected the AQD-Herndon and AQD-
Sierra Vista contracting offices because they obligated more DoD funds than the other
DOI contracting offices did. During FY 2010, AQD-Herndon contracting officials
executed 1,001 contract actions that obligated $1.1 billion of funds. Of those,
347 contract actions that obligated funds of $521.1 million were for purchases AQD-
Herndon officials made on behalf of DoD customers. DoD requesting activities business
represented 48 percent of AQD-Herndon’s overall business for FY 2010. During the
same time period, AQD-Sierra Vista contracting officials executed 640 contract actions
that obligated $498.7 million of funds. Of this, 464 contract actions, with obligated funds
of $434.3 million, were for purchases AQD-Sierra Vista made on behalf of DoD
customers. DoD business represented 87 percent of AQD-Sierra Vista’s overall business
in FY 2010.

Sample Information
We selected a nonstatistical sample of 56 assisted contract actions, valued at
$133.4 million, which AQD-Herndon and AQD-Sierra Vista contracting officials
awarded. AQD-Herndon contracting officials awarded 28 of the contract actions, valued
at $63.5 million, and AQD-Sierra Vista contracting officials awarded 28 contract actions,
valued at $69.9 million. Of the 56 contract actions we reviewed, 50 contract actions were
for services, and 6 contract actions were for products. None of the 56 contract actions
were for purchases of furniture. We reviewed the 56 contract actions in the following
areas:

   •   compliance with defense procurement requirements (56 contract actions),
   •   advance billing (56 contract actions),
   •   use of expired funds (56 contract actions),
   •   furniture purchases (56 contract actions),
   •   competition (45 contract actions),
   •   price reasonableness determinations (48 contract actions), and
   •   use of funds (42 contract actions).


                                            26
Use of Computer-Processed Data
We used the Federal Procurement Data System-Next Generation database to identify
assisted acquisition purchases that DOI made on behalf of DoD in FY 2010. We did not
perform a reliability assessment of the quality of the data because we used the data only
to identify DoD purchases to review. Once we selected a purchase, we reviewed it using
the documentation from the DOI contract files. Therefore, the computer-processed data
did not affect the performance of our audit steps.




                                           27
Appendix B. Prior Coverage
During the last 6 years, the Government Accountability Office (GAO), the DoD Inspector
General (DoD IG), the U.S. Department of the Army, the Department of Energy
Inspector General (DOE IG), and the Veterans Administration Inspector General (VA IG)
issued 32 reports discussing interagency acquisitions. Unrestricted GAO reports can be
accessed at http://www.gao.gov. Unrestricted DoD IG reports can be accessed at
http://www.dodig.mil/audit/reports. Unrestricted Army reports can be accessed from .mil
and gao.gov domains over the Internet at https://www.aaa.army.mil/. Unrestricted DOE
IG reports can be accessed at http://www.ig.energy.gov/reports.htm. Unrestricted VA IG
reports can be accessed at http://www.va.gov

GAO
GAO Report No. GAO-11-394T, “GAO's 2011 High Risk Series: An Update,”
February 17, 2011

GAO Report No. GAO-11-41, “NIST’s Interagency Agreements and Workload Require
Management Attention,” October 20, 2010

GAO Report No. GAO-10-862T, “Contracting Strategies: Better Data and Management
Needed to Leverage Value of Interagency and Enterprisewide Contracts,” June 30, 2010

GAO Report No. GAO-10-367, “Contracting Strategies: Data and Oversight Problems
Hamper Opportunities to Leverage Value of Interagency and Enterprisewide Contracts,”
April 29, 2010

GAO Report No. GAO-08-1063, “DoD Financial Management Improvements Are
Needed In Antideficiency Act Controls and Investigations,” September 26, 2008

DoD IG
DoD IG Report No. D-2011-021, “More DoD Oversight Needed for Purchases Made
Through the Department of Energy,” December 3, 2010

DoD IG Report No. D-2011-018, “FY 2008 and FY 2009 DoD Purchases Made Through
the General Services Administration,” November 30, 2010

DoD IG Report No. D-2009-064, “FY 2007 DoD Purchases Made Through the National
Institutes of Health,” March 24, 2009

DoD IG Report No. D-2009-043, “FY 2007 DoD Purchases Made Through the U.S.
Department of Veterans Affairs,” January 21, 2009

DoD IG Report No. D-2008-122, “Follow-up on DoD Purchases Made Through the
Department of the Interior,” August 18, 2008


                                          28
DoD IG Report No. D-2008-082, “Summary Report on Potential Antideficiency Act
Violations Resulting From DoD Purchases Made Through Non-DoD Agencies (FY 2004
Through FY 2007),” April 25, 2008

DoD IG Report No. D-2008-066, “FY 2006 and FY 2007 DoD Purchases Made Through
the Department of the Interior,” March 19, 2008

DoD IG Report No. D-2008-050, “Report on FY 2006 DoD Purchases Made Through the
Department of the Treasury,” February 11, 2008

DoD IG Report No. D-2008-036, “FY 2006 DoD Purchases Made Through the U.S.
Department of Veterans Affairs,” December 20, 2007

DoD IG Report No. D-2008-022, “FY 2006 DoD Purchases Made Through the National
Institutes of Health,” November 15, 2007

DoD IG Report No. D-2008-007, “Task Orders on the Air Force Network-Centric
Solutions Contract,” October 25, 2007

DoD IG Report No. D-2007-044, “FY 2005 DoD Purchases Made Through the
Department of the Interior,” January 16, 2007

DoD IG Report No. D-2007-042, “Potential Antideficiency Act Violations on DoD
Purchases Made Through Non-DoD Agencies,” January 2, 2007

Army
U.S. Army Audit Agency Report No. A-2009-0016-FFH, “Acquisition Made Using
Military Interdepartmental Purchase Requests, U.S. Army Medical Command,”
November 17, 2008

U.S. Army Audit Agency Report No. A-2007-0096-FFH, “Proper Use of Non-DoD
Contracts, U.S. Army Medical Command,” March 22, 2007

DOE IG
DOE IG Report No. DOE/IG-0829, “Work for Others Performed by the Department of
Energy for the Department of Defense,” October 26, 2009

VA IG
VA IG Report No. 06-03540-24, “Audit of VA Purchases Made on Behalf of the
Department of Defense,” November 19, 2007

VA IG Report No. 04-03178-139, “Audit of VA Acquisitions for Other Government
Agencies,” May 5, 2006



                                        29
     Appendix C. DoD Purchases Reviewed
     Contract and Order   Contract                    Purchase Description                                    DoD Activity                    Contract Vehicle Used
                           Value
                                                                           AQD-Herndon
     INN06PC10437          $4,991,841   Engineering support services related to completion      Material Support Division                   AQD-Herndon
      INN10PD18055                      and implementation support of a new C-130 wheel         Hill Air Force Base, Utah                   existing contract
                                        and brake system improvement Phase IV for the
                                        Applied Technologies for Landing Systems
                                        program
     INNG07DA18B            2,032,535   Services for sustainment and optimization of all        Lackland Air Force Base 67th Wing           NASA Solutions for
      INN09PD10716/008                  Cisco Systems, Inc. hardware                            Lackland Air Force Base, Texas              Enterprise-Wide
                                                                                                                                            Procurement Contract
     GS23F8006H              955,291    Services related to the adolescent substance abuse      Adolescent Substance Abuse Counseling       GSA Federal supply
      INN10PB18421                      counseling services program                             Services, U.S. Air Force                    schedule
                                                                                                Multiple installations
     GS35F4357D              375,217    Technical support service support to the access         U.S. Southern Command,                      GSA Federal supply
30




      IND10PD18571                      control system hardware, software, and                  Miami, Florida                              schedule
                                        infrastructure
     GS23F8006H              231,731    Services related to the adolescent substance abuse      Adolescent Substance Abuse Counseling       GSA Federal supply
      INN10PB18423                      counseling services program                             Services, U.S. Marine Corps, Multiple       schedule
                                                                                                installations
     GS23F8006H              218,860    Support services for “Facilitation of Defense           Office of the Secretary of Defense          GSA Federal supply
     IND10PD18691                       Science Board Task Force Study on Predicting            Defense Science Board                       schedule
                                        Violent Behavior”                                       Pentagon
     GS23F8006H              216,688    Support services related to a project titled “Defense   Office of Secretary of Defense /Defense     GSA Federal supply
      INN10PD18350                      Science Board Task Force on the Assessment of           Science Board,                              schedule
                                        Nuclear Treaty Monitoring and Verification              Pentagon
                                        Technologies”
     GS23F8006H              216,688    Support services related to a project titled “Defense   Office of Secretary of Defense /Defense     GSA Federal supply
      INN10PD18352                      Science Board Advisory Group on Defense                 Science Board,                              schedule
                                        Intelligence”                                           Pentagon
     GS00F0013R            10,000,000   Advisory/assistance support services for the Task       DoD Task Force for Business and Stability   GSA Federal supply
      IND10PD18556                      Force for Business and Stability Operations in the      Operations                                  schedule
                                        Central Command area of operations in                   Arlington, Virginia
                                        Afghanistan
     Contract and Order   Contract                    Purchase Description                                  DoD Activity                     Contract Vehicle Used
                           Value
     GS00F0013R             9,987,716   Advisory/assistance support services for the task     DoD Task Force for Business and Stability     GSA Federal supply
      IND10PD18556/001                  force for business and stability operations in the    Operations                                    schedule
                                        central command area of operations in Afghanistan     Arlington, Virginia
     INN06PC10439            182,000    Systems engineering and technical assistance          National Security Space Office                AQD-Herndon existing
      INN10PD18104                      services                                              Pentagon                                      contract
     GS23F9755H              170,542    Analytical and technical support services             U.S. Air Force Directorate of Strategic       GSA Federal supply
      INN10PD18216                                                                            Planning, Headquarters U.S. Air Force         schedule
                                                                                              A8X, Pentagon
     GS23F8006H              154,792    Government site analytical support services           Air Force Directorate of Strategic Planning   GSA Federal supply
      INN10PD18224                      supporting U.S. Air Force, Directorate of Strategic   Headquarters U.S. Air Force A8X,              schedule
                                        Planning, Long Range Plans Division                   Pentagon
     W91QUZ09D0043          3,782,801   Bar coding hardware related to the Army’s             Army Installation Management Systems          Existing DoD contract
      INN10PD18265                      Installation Support Modules system                   Fort Belvoir, Virginia
     W91QUZ06D0016          1,500,000   Help desk and network systems management              Department of the Army                        Existing DoD contract
      INN10PD18153                      support services                                      Installation Management Systems
                                                                                              Fort Belvoir, Virginia
31




     W91QUZ06D0016           522,920    Support services related to helpdesk and network      Department of the Army                        Existing DoD contract
      INN10PD18153/001                  systems management support                            Installation Management Systems
                                                                                              Fort Belvoir, Virginia
     W91QUZ06D0016            50,000    Support services related to helpdesk and network      Department of the Army                        Existing DoD contract
      INN10PD18153/003                  systems management support                            Installation Management Systems
                                                                                              Fort Belvoir, Virginia
     GS35F4461G             1,086,126   Technical support services for survey, system         Department of the Army                        GSA Federal supply
      INN10PD18140                      engineering, installation, upgrade, and integration   Installation Management Systems               schedule
                                        of the Management Support System program              Fort Belvoir, Virginia
     IND10PX18617             17,736    Citrix license update                                 Department of the Army                        AQD-Herndon
                                                                                              Installation Management Systems               new contract
                                                                                              Fort Belvoir, Virginia
     W91QUZ07D0006            18,755    3 Dell R710 PowerEdge servers                         Department of the Army                        Existing DoD contract
      INN10PD18428                                                                            Installation Management Systems
                                                                                              Fort Belvoir, Virginia
     INN10PC18314           7,081,380   Ten 25K loaders                                       Naval Sea Systems Command                     AQD-Herndon
                                                                                              Washington, D.C.                              new contract
     Contract and Order   Contract                    Purchase Description                                 DoD Activity               Contract Vehicle Used
                           Value
     GS07F9392S              213,469    903 compact life preservers                          Naval Sea Systems Command,              GSA Federal supply
      INN10PD18425                                                                           Washington, D.C.                        schedule
     DABL0103A1006            85,288    IBM software license renewal                         Field Support Activity Navy (Chief of   Existing DoD contract
      IND10PD18613                                                                           Naval Operations/Director Navy Staff)
                                                                                             1013 O Street, Washington, D.C.
     W91QUZ07D0004          2,274,824   Information technology services                      National Guard Bureau                   Existing DoD contract
      INN09PD10053/014                                                                       1411 Jefferson Davis Highway
                                                                                             Arlington, Virginia
     W91QUZ07D0004          5,346,558   Information technology services                      National Guard Bureau                   Existing DoD contract
      INN09PD10053/009                                                                       111 South George Mason Drive
                                                                                             Arlington, Virginia
     W91QUZ07D0004           300,128    Information technology services                      National Guard Bureau                   Existing DoD contract
      INN09PD10053/011                                                                       111 South George Mason Drive
                                                                                             Arlington, Virginia
     W91QUZ07D0004         10,522,821   Information technology services                      National Guard Bureau                   Existing DoD contract
      INN09PD10053/008                                                                       111 South George Mason Drive
32




                                                                                             Arlington, Virginia
     GS10F0189T              956,277    National Guard Bureau independent verification       Army National Guard Bureau              GSA Federal supply
      INN10PD18229                      and validation support                               111 South George Mason Drive            schedule
                                                                                             Arlington, Virginia
                                                                          AQD-Sierra Vista
     GS35F4357D            11,714,234   Support services related to the Battle Command       National Guard Bureau                   GSA Federal supply
      INN10PD20046                      Training Capability Program                          111 South George Mason Drive            schedule
                                                                                             Arlington, Virginia
     GS35F5537H            11,028,479   Information technology and professional services:    National Guard Bureau                   GSA Federal supply
      INN10PD20038                      Exportable combat training capability preparation,   111 South George Mason Drive            schedule
                                        execution, and postexercise activities project       Arlington, Virginia
     IND10PC20016           1,528,785   Services related to a new human language             Defense Advanced Research Projects      AQD-Sierra Vista
                                        technology research and development program          Agency, Comptroller                     new contract
                                        called “Robust Automatic Transcription of Speech”    3701 North Fairfax Drive
                                                                                             Arlington, Virginia
     Contract and Order   Contract                    Purchase Description                                   DoD Activity                  Contract Vehicle Used
                           Value
     IND10PC20019            249,954    Services related to innovative ideas to advance        Defense Advanced Research Projects        AQD-Sierra Vista
                                        technology in the area of air platform, ground/sea     Agency, Comptroller                       existing contract
                                        vehicles, sensors, and space platforms                 3701 North Fairfax Drive
                                                                                               Arlington, Virginia
     GS35F0340W             4,355,607   Products and services in support of the U.S. Army      Program Executive Office                  GSA Federal supply
      IND10PD20049                      335th Theater Signal Command in Southwest Asia         Enterprise Information Systems            schedule
                                                                                               Product Management Area Processing Ctr.
                                                                                               Fort Belvoir, Virginia
     GS10F0083L              526,358    Support services for the U.S. Army product             Program Executive Office                  GSA Federal supply
      IND10PD20053                      manager area processing centers to assist in           Enterprise Information Systems            schedule
                                        reviewing ongoing strategic initiatives and            Product Management Area Processing Ctr.
                                        developing a supporting plan to drive                  Fort Belvoir, Virginia
                                        transformation objectives
     GS23F0108J             2,287,040   Support services to provide a wide range of            Headquarters U.S. Army Pacific            GSA Federal supply
      IND10PD20062                      planning, deployment and employment operations,        Bldg T 102, Stop 10                       schedule
                                        logistics, maintenance, and sustainment support        Fort Shafter, Hawaii
     10PC20065              1,755,000   Support services for the move of two major Army        Network Enterprise Center                 AQD-Sierra Vista
33




                                        Commands from current locations to Fort Bragg,         2175 Reilly Road, Stop A                  new contract
                                        North Carolina: U.S. Army Forces Command and           Fort Bragg, North Carolina
                                        U.S. Army Reserve Command
     GS23F0108J                         On-site support services in Government facilities at   CDR, United States Army Pacific, G6,      GSA Federal supply
      IND10PD20029          3,207,434   Fort Shafter, Hawaii, and support as required to       Requirements Management Division          schedule
                                        U.S. Army Pacific Command units in Japan,              572 Palm Circle Drive, Bldg T-128
                                        Okinawa, and Alaska                                    Fort Shafer, Hawaii
     INDNBCHA090006         1,534,951   Services to support the intelligence community and     United States Army Intelligence Center    GSA Federal supply
      IND10PB20009                      warfighter with validated operational architectures    Fort Huachuca, Arizona                    schedule blanket purchase
                                        that document the requirements and organization of                                               agreement
                                        the U.S. Army Military Intelligence community
     INDNBCHA090006         1,459,861   Services related to follow-on efforts resulting from   United States Army Intelligence Center    GSA Federal supply
      IND10PB20014                      the 2009 and 2010 warfighter information               Fort Huachuca, Arizona                    schedule blanket purchase
                                        capability assessment of information and                                                         agreement
                                        intelligence collection, processing, analysis,
                                        dissemination, and integration with the combatant
                                        commander's information needs
     Contract and Order   Contract                    Purchase Description                                   DoD Activity                 Contract Vehicle Used
                           Value
     INDNBCHA090006         1,361,338   On-site expertise for the Requirements                 United States Army Intelligence Center   GSA Federal supply
      IND10PB20008                      Development Directorate, US Army Intelligence          Fort Huachuca, Arizona                   schedule blanket purchase
                                        Center, Fort Huachuca, Arizona                                                                  agreement
     INDNBCHA090003          927,672    On-site contractor expertise to facilitate combat      United States Army Intelligence Center   GSA Federal supply
      IND10PB20005                      development, implementation and intensive              Fort Huachuca, Arizona                   schedule blanket purchase
                                        management of support to the distributed common                                                 agreement
                                        ground system-A program
     INDNBCHA090003          733,834    Services related to the personnel identification       United States Army Intelligence Center   GSA Federal supply
      IND10PB20015                      integrated capabilities development team,              Fort Huachuca, Arizona                   schedule blanket purchase
                                        capabilities development/integration, and Training                                              agreement
                                        and Doctrine Command Capability Manager
                                        biometrics and forensics at Fort Huachuca, Arizona
     INDNBCHA090006          309,424    Contractors will serve as subject matter experts on    United States Army Intelligence Center   GSA Federal supply
      IND10PB20012                      electronic warfare capabilities and develop specific   Fort Huachuca, Arizona                   schedule blanket purchase
                                        requirements supporting the operational needs of                                                agreement
                                        the warfighter, the test/evaluation process, and the
                                        acquisition system
34




     INDNBCHA090006          193,029    Services to enhance virtual interrogation capability   United States Army Intelligence Center   GSA Federal supply
      IND10PB20011                                                                             Fort Huachuca, Arizona                   schedule blanket purchase
                                                                                                                                        agreement
     INDNBCHA090006          154,712    Subject matter experts to provide on-site contractor   United States Army Intelligence Center   GSA Federal supply
      IND10PB20013                      expertise for military intelligence requirements       Fort Huachuca, Arizona                   schedule blanket purchase
                                                                                                                                        agreement
     NBCHA090006             154,712    Services to provide on-site contractor expertise for   United States Army Intelligence Center   GSA Federal supply
      IND10PB20007                      development, analysis and production of capability     Fort Huachuca, Arizona                   schedule blanket purchase
                                        development documentation for technical                                                         agreement
                                        intelligence and weapons intelligence teams
     INDNBCHA090006          154,712    On-site contractor expertise for development           United States Army Intelligence Center   GSA Federal supply
      IND10PB20006                      analysis and production of integrated support to the   Fort Huachuca, Arizona                   schedule blanket purchase
                                        U.S. Army Intelligence Center efforts to integrate                                              agreement
                                        intelligence operations with brigade Brigade
                                        Combat Team modernization
     INDNBCHA090003          147,359    Services related to the immediate and timely           United States Army Intelligence Center   GSA Federal supply
      IND10PB20004                      retrieval, analysis, and recommendations on            Fort Huachuca, Arizona                   schedule blanket purchase
                                        personnel and equipment data                                                                    agreement
     Contract and Order    Contract                    Purchase Description                                  DoD Activity                       Contract Vehicle Used
                            Value
     GS35F0398V              1,920,000   Information technology site manager support          Headquarters U.S. Army Medical Command          GSA Federal supply
      IND10PD20028                       services for the U.S. Army Headquarters Medical      2050 Worth Road, Suite 9                        schedule
                                         Command standardization initiative which will        Fort Sam Houston, Texas
                                         provide and operate health care provider required
                                         IT applications
     GS35F0261K               189,066    Services for purpose of complying with the DoD        National Guard Bureau, Army Training           GSA Federal supply
      IND10PD20076                       information assurance certification and               Division Battle Command Training               schedule
                                         accreditation program                                 Center-Dodge
                                                                                               7105 North West 70th Avenue
                                                                                               Camp Dodge, Johnston, Iowa
     INDNBCHD080004         10,217,940   Services to coordinate, schedule, and conduct         The Office of the Assistant Secretary of the   AQD-Sierra Vista
      IND10PD20004                       sexual harassment and assault prevention training     Army, Manpower and Reserve Affairs,            existing contract
                                         worldwide                                             Pentagon
     INDNBCHD080004          7,450,170   Services to inform young adults and those who         The Office of the Assistant Secretary of the   AQD-Sierra Vista
      IND10PD20023                       influence them about the benefits of joining the      Army, Manpower and Reserve Affairs,            existing contract
                                         Army                                                  Pentagon
     INDNBCHD080004          3,918,966   Analytical, management and advisory services          The Office of the Assistant Secretary of the   AQD-Sierra Vista
35




      IND10PD20061                       related to civilian workforce transformation          Army, Manpower and Reserve Affairs,            existing contract
                                                                                               Pentagon
     INDNBCHD080004           552,350    Services to provide new Army executives an            The Office of the Assistant Secretary of the   AQD-Sierra Vista
      IND10PD20063                       executive on boarding course that provides skills     Army, Manpower and Reserve Affairs,            existing contract
                                         critical as a key member of the Army leadership       Pentagon
                                         team
     GS23F8023H              1,773,399   Services to provide support for a Web-based           The Office of the Assistant Secretary of the   GSA Federal supply
      IND10PD20073                       benefits and counseling information and support       Army, Manpower and Reserve Affairs,            schedule
                                         system for the Deputy Chief of Staff, G1, Human       Pentagon
                                         Resources Policy Directorate
     INDNBCHP090077           148,996    Support services to maintain the technical support    National Defense University, Information       AQD-Sierra Vista
      Modification 01                    to staff e-Learning Solutions Group                   Resource Management College                    existing contract /
                                                                                               Fort Lesley J. McNair                          modification
                                                                                               Washington, D.C.
      Note: Amounts are rounded.
     Appendix D. AQD-Herndon Contracting Problems
        Contract          Order           Inadequate        Inadequate        Inadequate         Inadequate      Product
                                             Price         Competition         Review of        Independent        or
                                        Reasonableness    (Initial Award    Contractor Cost     Government       Service
                                        (Initial Award         Only)           Proposals       Cost Estimates
                                             Only)                          (Services Only)    (Services Only)
     GS00F0013R      IND10PD18556              ●                                    ●                 ●           Service
     GS00F0013R      IND10PD18556/001    Did not review    Did not review     Did not review    Did not review    Service
     NNG07DA18B      INN09PD10716/008    Did not review    Did not review     Did not review    Did not review    Service
     GS35F4357D      IND10PD18571                                                                     ●           Service
     DABL0103A1006   IND10PD18613                                             Did not review    Did not review   Product
     GS23F8006H      IND10PD18691                                                                     ●           Service
                     IND10PX18617                                             Did not review    Did not review   Product
36




     W91QUZ07D0004   INN09PD10053/008    Did not review    Did not review     Did not review    Did not review    Service
     W91QUZ07D0004   INN09PD10053/009    Did not review    Did not review     Did not review    Did not review    Service
     W91QUZ07D0004   INN09PD10053/011                      Did not review           ●                 ●           Service
     W91QUZ07D0004   INN09PD10053/014    Did not review    Did not review     Did not review    Did not review    Service
     GS23F8006H      INN10PB18421              ●                                    ●                 ●           Service
     GS23F8006H      INN10PB18423              ●                                    ●                 ●           Service
                     INN10PC18314                                             Did not review    Did not review   Product
     INN06PC10437    INN10PD18055                                                                     ●           Service
     INN06PC10439    INN10PD18104                          Did not review                             ●           Service
     GS35F4461G      INN10PD18140              ●                 ●                  ●                 ●           Service
     W91QUZ06D0016   INN10PD18153                                                                     ●           Service
     W91QUZ06D0016   INN10PD18153/001    Did not review    Did not review     Did not review    Did not review    Service
     W91QUZ06D0016   INN10PD18153/003    Did not review    Did not review     Did not review    Did not review    Service
     GS23F9755H      INN10PD18216              ●                 ●                  ●                 ●           Service
     GS23F8006H      INN10PD18224              ●                 ●                  ●                 ●           Service
     GS10F0189T      INN10PD18229              ●                 ●                  ●                 ●           Service
          Contract                 Order               Inadequate             Inadequate             Inadequate             Inadequate                Product
                                                          Price              Competition              Review of            Independent                  or
                                                     Reasonableness         (Initial Award         Contractor Cost         Government                 Service
                                                     (Initial Award              Only)                Proposals           Cost Estimates
                                                          Only)                                    (Services Only)        (Services Only)
      W91QUZ09D0043          INN10PD18265                                                            Did not review          Did not review               Product
      GS23F8006H             INN10PD18350                    ●                                                                     ●                      Service
      GS23F8006H             INN10PD18352                    ●                                             ●                       ●                      Service
      GS07F9392S             INN10PD18425                                           ●                Did not review          Did not review               Product
      W91QUZ07D0006          INN10PD18428                                                            Did not review          Did not review               Product
       Total                                               9 of 21                5 of 19                9 of 15                15 of 15
     Note: Blank spaces indicates contract actions that have been reviewed with no errors found.
           ● indicates contract actions that have been reviewed with errors found.
           “Did not review” indicates contract actions that were not reviewed because they were either contract modifications or purchases of products.
37
     Appendix E. AQD-Sierra Vista Contracting Problems
         Contract         Order        Inadequate       Inadequate        Inadequate        Inadequate      Product or
                                          Price        Competition         Review of       Independent       Service
                                     Reasonableness   (Initial Award    Contractor Cost    Government
                                     (Initial Award        Only)           Proposals      Cost Estimates
                                          Only)                         (Services Only)   (Services Only)
     GS35F4357D       INN10PD20046         ●                                  ●                  ●            Service
     GS35F0261K       IND10PD20076                                                               ●            Service
     GS35F5537H       INN10PD20038         ●                                  ●                  ●            Service
     GS35F0340W       IND10PD20049                                                               ●            Service
     GS23F8023H       IND10PD20073         ●                                  ●                  ●            Service
                      IND10PC20016         ●                                  ●             Not required      Service
     INDNBCHA090003   IND10PB20005                                            ●                  ●            Service
38




     INDNBCHA090003   IND10PB20015                                            ●                  ●            Service
     INDNBCHD080004   IND10PD20063         ●                                  ●                  ●            Service
                      IND10PC20019         ●           Did not review         ●             Not required      Service
     INDNBCHA090006   IND10PB20013                                            ●                  ●            Service
     INDNBCHD080004   IND10PD20004         ●                                  ●                  ●            Service
     INDNBCHD080004   IND10PD20023         ●                                  ●                  ●            Service
     INDNBCHD080004   IND10PD20061         ●                                  ●                  ●            Service
     GS35F0398V       IND10PD20028         ●                                  ●                  ●            Service
                      IND10PC20065                                                               ●            Service
     GS10F0083L       IND10PD20053         ●                                  ●                  ●            Service
     INDNBCHA090006   IND10PB20009                                            ●                  ●            Service
     INDNBCHA090006   IND10PB20014         ●                                  ●                  ●            Service
     INDNBCHA090006   IND10PB20008                                            ●                  ●            Service
     INDNBCHA090006   IND10PB20011         ●                                  ●                  ●            Service
     INDNBCHA090006   IND10PB20007                                                               ●            Service
     INDNBCHA090003   IND10PB20004                                            ●                  ●            Service
            Contract                 Order               Inadequate             Inadequate            Inadequate             Inadequate             Product or
                                                            Price              Competition             Review of            Independent              Service
                                                       Reasonableness         (Initial Award        Contractor Cost         Government
                                                       (Initial Award              Only)               Proposals           Cost Estimates
                                                            Only)                                   (Services Only)        (Services Only)
      GS23F0108J               IND10PD20029                    ●                                             ●                                            Service
      GS23F0108J               IND10PD20062                    ●                                             ●                                            Service
      INDNBCHA090006           IND10PB20012                                                                                         ●                     Service
      INDNBCHA090006           IND10PB20006                                                                  ●                      ●                     Service
      INDNBCHP090077/001                                 Did not review         Did not review         Did not review        Did not review               Service
       Total                                                15 of 27                0 of 26               22 of 27              23 of 25
     Note: Blank spaces indicates contract actions that have been reviewed with no errors found.
           ● indicates contract actions that have been reviewed with errors found.
           “Did not review” indicates contract actions that were not reviewed because they were either contract modifications or purchases of products.
39
  Appendix F. MIPRs That Were Not Specific
       DOI Contract              DoD Requesting Activity                              Issues
        DoD MIPR
                                           AQD-Herndon
IND10PD18556              DoD Task Force for Business and            1) Did not define requirements in detail
   1) HQ011702624         Stability Operations
                          Arlington, Virginia
IND10PD18556 (Mod. 1*)    DoD Task Force for Business and            2) Did not define requirements in detail
   2) HQ011702688         Stability Operations                       2) No period of performance
   3) HQ011702690         Arlington, Virginia                        3) Did not define requirements in detail
                                                                     3) No period of performance
IND10PD18571              U.S. Southern Command                      4) Did not define requirements in detail
   4) MIPR0LO14C6040      Miami, Florida
IND10PD10053 (Mod. 11)    National Guard Bureau                      5) No period of performance
   5) F9WFJS0110G001      111 South George Mason Drive
                          Arlington, Virginia
INN10PB18421              Adolescent Substance Abuse Counseling      6) Did not define requirements in detail
   6) F1ATA10173G001      Services, Multiple installations           6) No period of performance
   7) F2CFMD0097G001                                                 7) No period of performance
   8) F2CFMD0159G002                                                 8) No period of performance
INN10PD18153 (Mod. 3)     Army Installation Management Systems       9) No period of performance
   9) MIPR0CQ8AA0011 A1   Fort Belvoir, Virginia

INN10PD18229              National Guard Bureau                      10) Did not define requirements in detail
   10) MIPR0ANBCIS005     111 South George Mason Drive
                          Arlington, Virginia
INN10PD18265              Department of the Army                     11) No period of performance
   11) MIPR9MQ9TH0005     Installation Management Systems,           12) No period of performance
   12) MIPR0GQ8AL0001     Fort Belvoir, Virginia                     13) No period of performance
   13) MIPR0GQ8AM0001                                                14) No period of performance
   14) MIPR9MQ9CD0006
                          U.S. Air Force Directorate of Strategic    15) Did not define requirements in detail
INN10PD18224
                          Planning, Headquarters U.S. Air Force
   15) F1AF1K005.01
                          A8X, Pentagon
                                         AQD-Sierra Vista
IND10PB20007              U.S. Army Intelligence Center              16) Did not define requirements in detail
   16) MIPR0LDOIRE209     Fort Huachuca, Arizona
IND10PC20016              Defense Advanced Research Projects         17) Did not define requirements in detail
   17) 10-Z996            Agency, Controller                         17) No period of performance
                          3701 North Fairfax Drive
                          Arlington, Virginia
IND10PC20019              Defense Advanced Research Projects         18) Did not define requirements in detail
   18) 10-C739            Agency, Controller                         18) No period of performance
                          3701 N. Fairfax Drive
                          Arlington, Virginia
IND10PC20065              Network Enterprise Center                  19) Did not define requirements in detail
   19) MIPR0MDIBSN553     2175 Reilly Road, Stop A
                          Fort Bragg, North Carolina
IND10PD20073              The Office of the Assistant Secretary of   20) Did not define requirements in detail
   20) 10D1JW0013         the Army, Manpower and Reserve             20) No period of performance
                          Affairs, Pentagon


                                                  40
      DOI Contract             DoD Requesting Activity                                 Issues
       DoD MIPR
IND10PD20028               Headquarters U.S. ARMY Medical             21) No period of performance
   21) MIPR0LH8ARD041      Command
                           2050 Worth Road, Suite 9
                           Fort Sam Houston, Texas
IND10PB20005               U.S. Army Intelligence Center              22) Did not define requirements in detail
   22) MIPR0LDOIRE214      Fort Huachuca, Arizona                     23) Did not define requirements in detail
   23) MIPR0LDOIRE214 A1
IND10PB20015               United States Army Intelligence Center,    24) Did not define requirements in detail
   24) MIPR0LDOIRY218      Fort Huachuca, Arizona
IND10PB20008               United States Army Intelligence Center,    25) Did not define requirements in detail
   25) MIPR0LDOIRE212      Fort Huachuca, Arizona
IND10PB20009               United States Army Intelligence Center,    26) Did not define requirements in detail
   26) MIPR0LDOIRE206      Fort Huachuca, Arizona
IND10PB20012               United States Army Intelligence Center,    27) Did not define requirements in detail
   27) MIPR0LDOIRE208      Fort Huachuca, Arizona
IND10PB20013               United States Army Intelligence Center,    28) Did not define requirements in detail
   28) MIPR0LDOIRE210      Fort Huachuca, Arizona
IND10PB20014               United States Army Intelligence Center,    29) Did not define requirements in detail
   29) MIPR0LDOIRE207      Fort Huachuca, Arizona                     30) Did not define requirements in detail
   30) MIPR0LDOIRE207 A1
IND10PD20004               Office of the Assistant Secretary of the   31) No period of performance
   31) MIPR10D1JA0007      Army, Manpower and Reserve Affairs
                           Pentagon
IND10PD20023               The Office of the Assistant Secretary of   32) No period of performance
   32) MIPR10L1AM0008      the Army, Manpower and Reserve Affairs
                           Pentagon
IND10PD20061               The Office of the Assistant Secretary of   33) No period of performance
   33) MIPR10D1AA0003      the Army, Manpower and Reserve Affairs     34) No period of performance
   34) MIPR10D1AA0003-1    Pentagon                                   35) No period of performance
   35) MIPR10D1AA0003-2
IND10PD20063               The Office of the Assistant Secretary of   36) No period of performance
   36) MIPR10LKAA0020      the Army, Manpower and Reserve Affairs     37) No period of performance
   37) MIPR10LKAA0020-1    Pentagon
IND10PB20006               United States Army Intelligence Center,    38) Did not define requirements in detail
   38) MIPR0LDOIRE211      Fort Huachuca, Arizona
  *Modification.




                                                    41
Department of the Interior Comments




                           United States Department of the Interior
                                           OHICli OF 'I'm. SliCRETAIlY
                                             WAshington, DC 20240
                                                    FED 2     20~




      Mr. Dnnic11t Bluir
      ) cp1u1Illcnt of Defense Office of Inspector OCllcOIl
      Officcoflhe Deputy Inspector Ocncml for Auditing
      4800 Mnrk Cenler Drive
      Alexlll1dri,. VA 22350· 1500

       Denr Mr. Dlnir:

      'nle Department orthe Interior Ontcrior) npprcciutcs Ihe opportunity to provide nil o01cial response to
      tho dmfi report titk'd "DoD's FY 2012 I)urchnscs Mnde 'J1mlUgh the Dc:pmtmcnt oflile Interior",
      dilled J,nu,ry 6. 2012 (DOIl'rojcel No. ER·IN·NBC·OOOI·2011).

      '111e Dcp.·u1ment of Defense (DoD) commCI"M.:w n review orllie potclltiui Anli-Dclicicilcy Act (ADA)
      violations identified ill the referenced report withilllhc required tcn-<iny window. '111is review is
      ongoing, and Interior will work with DoD to ensure thnt Ally issues nrc corrected,

       Interior concurs wilh the one recommendation disclosed in two 1}'111S widunlhc rcpOI1. In gCllcml, we
      promole the use of established sources (including conlmels nwarded by other agencics) where
      nppropriute in order to mn;dmlze efficiency Rnd 10 achieve economics of sClllc, Howcvcr, cflcctivc
      communication hetween the acquisition onice lind the requesting activity is cssential dl!ring the
      acquisition plnnning process. 'J11crcforc, in response 10 r«ommcndulion lA Pmt A, Interior will
      deploy n management corrective uelion plnn thnt will strengthcn our process 10 Infonn DoD
      requcsting uctivitics oflhe inlent to usc contmels from other Fcdcrol agencies for DoD purchnscs, In
      response to recommendation IA Part n, Interior will enhance Inice rcnsonnblcllcss detcl1ninatiolls for
      contmct nctions awarded w;ing competitive jlffiCcdurcs whell olle oncr is received. Enclosure I
      provides a Statement ofMiUlRgement Actions plmUlcd by Interior to implement Ihe 10's
      rccommendations. Eaeh actionlisls the name of the responsible official lind the target date for
      implcmenlnlion,

      lnlcrior hilS nlso reviewed the illtcmnl conlrol wcnkllcsscs nlld olhcr findings Idcntilkd in the 1'CI'I011.
      In response 10 these findings, Inleriorwilltakc action 10 strengthen cxisting intcmnl controls over the
      ncql1isilion pmccss, for exnmple, by providing ndditionallmining 10 acquisition slnffregarding the
      bona fide nceds rulo [lnd the speci ficity required on oblignting documents. Interior will also work wilh
      DoD officitlls to ensure Ihat ull findings [lnd recommendations in the rel)()lt mc iml)lcmcnted
      effectively,




                                                                         42
Department of the Interior Comments




                         Sincerely,

                          ~/ .. . 1j d.J..,.(fr'1
                         R~~
                         Assistant Secretary
                         ,JoHey. Mllllogcmcnt nnd [)udgel



      Enclosure

      cc:




                                        43
Department of the Interior Comments




                                           DepArtment of the Interior
         Sintement of Actions on the Don's FY2012 PUl'cbn!lc Mnde through the Dellfl"'lUent orille
                            Illlcl'iol' (IJOII'l'ojccl No, ER-IN-NIIC-OOOI-2011)


      To addrc.t,f ,lie /'ecomll/clu/aliolls Illlhe 5t1bjeCll'cpol'l, 'lte Secrct"')' of/he Jl1feriOl' dil'ects 'lie National
      DlIl'im!ss CCI/tel' Director 10 accomplish 'lie jill/owing 1II(fl/agf!IIIelll m:liolls.

      lG UccommcudlitiOIl At:
      We recommend that the Set:rclary ortlle htlcrior direct tbe Nntiol1ul Businc.'is Ccntcl' to iuslmcl
      Acquisition Services Dircctomtc-Hcmdun Ulld Acquisition Services Directorate-Sierra Vista to:
             8. Inronn DoD rcquc~tillg {lcli\'itic~'1 ofthcir intent to usc conlmt:ls from olher Fcdcml ngcncics
             for DoD ImrcllOscs.
             b, Belter support price rcnsonablcllc.'iS delcnnillittions for eontmct actions nwanlcd using
             compelitive procedures where only one oner is received.

      [nlcriol' RC,~ponlie to AI "Ali A: The 001 Office afthe Sccretary, Nntional Bllsincss Centcr (NBC)
      Acquisition Services Dircctomlc (AQIJ) will strengthcn our process 10 infoml ODD requesting
      activities ofthe intent to usc contracts from olher Federal ;tgencics for DoD Pll1'cilllSCS by rcquhillg
      docnmentary evidence of DoD's review of the uC<juisition slrntegy,

      Tnl'gct URIC:   JUllt 30, 2012


      RcsJlOlldblc Officlal: William Archambe,mlt, N<1titJnal Business Celller, Acting Associule Director,
      Acquisition Selviccs Dircctomtc,


      Interiol' lkliJ10IISC to AI rurl II: '111e DOl Office of the Secretary, N:llioll<11 Ousincss Celltcr (NBC)
      Acquisition Services DirtClolllte (AQD) wUl enhance price l'eusonnblencss delennillutions for cOlllmct
      action nwnrded llsing competitivc procedures when only one oller is received, AQD will implement
      policies lind procedures to clI:,;urc that price rensonablencS!; detcl111inutions nreudcqunlcly suppol1eo
      find that competition is sought to the maximum extcnt prneticublc.

      Tl1l'gcl DnCe: JUlie 30, 2012

      Responsible Official: Willirun Archambeault, Nfltionul Business Ccnter, Acting Associute Oil'cclor,
      Acquisition Services Dircctomtc,




                                                                               44
Under Secretary of Defense for Acquisition, Technology,
and Logistics Comments




                               OFFICE OFTHE UNDER SECRETARY OF DEFENSE
                                                 3 000 DEFENSE PENTAGON
                                                WA SHINGTON. DC 203 0 1-3000


                                                                                                        ~l~1I   I 2 1011
    "'CQUI SIlION.
    Tf:CHN OLOOY
    AN D LOGISTlC 5


           MEMORAND U ~'l         FOR DEPUTY INSPECTOR GENERAL FOR A UOrn NG, DoOICi

           TIIROUGII: DIRECTOR. ACQUI SITION RESOURCES AND ANALYSIS                               ~\\~\1>
           SUBJECT; Respo nse to DuDlG Omit Report on DoD 's FY 2010 Purchases Made Through the
                            Dcpnrllllcni orlhe Interior (Project No. D2011-DOOOCF·0034.00)

                      As rr.:qucslcd, 1 mn providing responses 10 Ihe genera l content and recommendations
           containcd in the subject repo r!.

           l~ccomnlCndlltiun:
           We recommend thnt lhe Under Scc~lary of Dcfcnsc lor Acquisi lion, Technology nnd Logi stics
           instruct Dol) requesting aclivi lies to obtain ,lppro\';\1 from their I-I<-,ads of COli 1mCling lIllheir
           rcspcclivc contracting activities in situations whell Acqui sition Serv ices Dircctorate·I·lcrndon or
           Acquisition Services DircclOrutc·S icrra Vi sta intcnd to us(: other Federal 'Igcncies· contruc\s to
           nmkc purchases for DoD.

           Rl'snOIlSc:
           Concur. We share your COill.:erns Ihat the Department should be mindful orthe Ices paid to
           Ilss i ~ting ngelll:ics for their services and the lISC orthcir conlruet vchicles to meet 000
           requirements. Please note lhull)(.. rensc Fetkml Acquisition Reg ulation Supplement (DFARS)
           217.7802 requires 0 00 Components to establish and mnintnin procedures lor reviewing and
           approving, orders I}l:lccd for supplies and services under non-DoD conlmcls, whether Ihrough
           direct nequi si tion or lIssistccl acqu is itioll . Included in Ihese procedures is the requirclllcllttu
           assess the cosl eflhtivellcss ofthc approach. taking into tlccount di scount s and I~cs .

           UCCOIlllllcntl:lIion :
           lnilinte 1\ change to the Defcllse Fcdcml Acqui sition Rcgul:ltion Suppkmclltto include
           information contained in the Novcmber 24 , 2010, Ilnd April 27, 2011 , Under Secretary of
           De fense lor Acquisiti on. Technology and Logistics lllcJl10ntnda related to improving competition
           in Defense procurements.

           UCSPfll1SC
           Concur. The Dcp:lrtmcnt Iws generated multiple OFARS cllses in support of the Detter Buying
           Power initiatiw. Specificnlly Casc 20 11-001 J is directly related to improving competition ill
           DoD proeurcl1l(·nts. 11 imph:mcnt s a DoD Better Buying Power initiative to address using
           competitive procedures in procurements in which only one oni:r is received. The Defense
           Al:quisition Regulati on Council is illlhc process of complcting it s revicw of public commcnts
           nnd prcp;lring nlinal rule which is plnnn('d ror rclca ~c somclim(' in the ApriIlMa>' timclhullc.

                  ['lease contact ~• • • • • • • • • • • • • • • • • • • • • ir:lddili()nal
           inlormation is required .



                                                       ~I&'~)#
                                                       u-. Director, Defense Procurement
                                                               and Acqui~ition Policy




                                                                            45
Under Secretary of Defense (Comptroller)/Chief Financial
Officer Comments




                             OFF ICE O F Tt-JE UND E H SEC Il ET AR Y OF D E F EN SE
                                           1 100 D EFE t'>l $E f'E N1'AGO N
                                          WASH ING1 0 N , f.lC 2030 1 11 00



    CO M" 11l0 LlUf
                                                                                          FE O g :l!17
           MEMORANDUM FOR DEPUTY 11'SPECTOR GENERAL FOR AUDITING, IJEI'ARTM ENT
                            Of DEFENSE OFFICE OF INSPECTOR GENERAL

           SUBJECT: Response to Droll Audit Report, "DoD's FY 20 10 Purchases Made Througi\
                    the DcparllTlcnt of the Interior" (DoD (·rojcct No. D2011·IJOOOCF·0034.000)

                      This memurandum responds 10 recommendations mndc 10 the Under Secretmy of
           Defense (Complrollcr)/ChicfFinancltll Olliccr in the subject Department of Defense Office   or
           InSllcclor Genernl (OIG) dmn report . We concur with recommendations 11.1.B (Iud H.I.b,
           Dctnllcd rC5ponscs addressing the rccollU1lCnclntiollS Ufe uttnchcd.

                                                                               liiiiiiii,cpon.-
                                                            , jj/
                                                               r~1-
                                                             t\1ark E. caston
                                                            )~Cput)' Chi er Fin:mcial omccr

           Alluchment:
           As 51311.'<1




                                                                        46
Under Secretary of Defense (Comptroller)/Chief Financial
Officer Comments




             OFFICE OF THE UNllER SECIlETAIlV OF llEFENSE (COMI'l'1I0LLEII)
                     (OUSll(C) RESPONSES TO RECOMMENDATIONS

         llEI'ARTMENT OF llEFENSE (IlOD) OFFICE OF INSPECTOR GENERAL (OIG)
             DRAFT IlEPORT, "DOD'S FV 2010 PURCHASES MAllE THROUGH THE
                            DEPARTMENT OF THE INTEIlIOR"
                      (DOD I'ROJECr NO. 1l2011-DOOOCF·0034.000) and
                         (1l0l PROJECT NO. EIl-IN-NBC-OOOI-2011)


       RECOMMRNI>ATION n.l.n: We recommend thai the Under Secretary of Defense
       (Comptrollcr)/ChicfFinancialoflicef; u. Update the DoD Financial Management Regulation to
       stale that the bOlla fide needs rule and the OcxibiLity provided by section 24 1On. title 10,
       United Stotes Codc. applies cqualJy to Economy Act find non·Ecollomy Act orders. Specifically.
       the policy for Economy Act orders should be ch:mgcrl to Illulch thaI for non-Economy Act
       orders, requiring severable services to begin during the funds' period ofavailabilily.

       OUSDlC> RESPONSE O,l.a: The Office of the Deputy Chieffinollcinl OAicer (ODCFO) will
       update DoD FilUlI/C'ltll J..'kmagemclII Regulal/on (DuOPMR) Volume 11 A. Chulltcr 3, "ECOIIOIllY
       Act," nnd Chnptcr 18, "Non· Economy Act," to state that the bona fide needs rule I.md the
       llcxibility provided by 10 u.s.c § 241 O(a) npplies equally to Economy Act find non·Economy
       Act orders.


       RECOMMENDATION n.t.h: We recollllllend that the Under Secretary of Defense
       (Colllplrollcr)/Chlef Financial officer: h. Instruct 000 Components to follow existing guidance
       on the need to be specific in defining I"equirements, including Il clear description of the services
       or goods b>:ing purchnscd and u period ofllcrformnnce, when they prepare military
       interdepartmental purchase rcqucsts.

       OUSI)(C) RESl'ONSE B.1.b: The onera will issue a policy memorandum 10 remind
       Components to ndhere to existing guidance ill DoDFMR Volume IlA, Chapler 3, Paragraph
       030401 , and Chapter 18. Paragmph 180203A.




                                                                                                Attachment




                                                                    47
Department of the Army Comments





                                    DEPARTMENT OF THE E,RMY
                              OFFICE OF THE ASSISTANT SECRI::TAR OF THE ARMY
                                 FINANCIAL MANAGEMENT AND CO !)TROLLER
                                            109 ARMY PENTAGON
                                        WASHINGTON DC 20310-0'09
               ~~PLYTO
               ATTENTION OF




     MEMORANDUM THRU Auditor General, Department of the Army, 3101 Park Center
     Drive, Alexandria, Virginia 22302-1596

     FOR Inspector General, Department of Defense, Defense Business Operations, 400 Army
     Navy Drive, Arlington, Virginia 22202-4704

     SUBJECT: Department of Defense Inspector Genera
                                                   Generall Draft Report, Purchases Made
     Through the Department of the Interior (Project No. D2011-DOOOCF-0034.000)


     1. We appreciate the opportunity to comment on Recpmmendation 8-2 in the subject
     Report.

     2. The draft report advises that Army should oversee~he adjudication of suspected bona
     fide needs issues related to award of five contracts fo severable services in Fiscal Year
     (FY) 2010. We are in the process of doing this. In re ponse to the discussion draft, we
     issued memoranda on August 17, 2011 directing the ppropriate commands to provide us
                                 Click to add JPEG file
     with additional information on these contract actions a d report any suspected violations to
     this office.

     3. Our initial review of the Army National Guard   cantlet
                                                             indicates that the contract was
     funded correctly and was a bona fide need of FY 201 . Our review of the other contracts
     is ongoing. The remaining reviews will be completed n the next 90 days.




                                      Deputy




                                                               48
